f i na n c i a l s tat e m e n t s     FI SC A L 2011





                         MARCH 2012

                                                                            Table of Contents

                      THE LIBRARY OF CONGRESS 

                    Financial Statements for Fiscal Year 2011 


                              TABLE OF CONTENTS
                                                                                 PAGE

MANAGEMENT’S DISCUSSION AND ANALYSIS

      Introduction                                                                     1
      The Library of Congress and Its Mission                                          1
      Strategic Plan                                                                   1
      Brief History                                                                    1
      The Library of Congress Today                                                    3
      Overview of Financial Statements                                                 4
      Performance Targets and Accomplishments                                         10
      Internal Control Program, Systems, Controls and Legal Compliance                22
      Limitations of the Financial Statements                                         23

FINANCIAL STATEMENTS AND NOTES

      Consolidated Balance Sheets                                                     24
      Consolidated Statements of Net Costs                                            25
      Consolidated Statements of Changes in Net Position                              26
      Combined Statements of Budgetary Resources                                      27
      Notes to the Consolidated Financial Statements                                  28

MANAGEMENT REPORT

      Assessment of Condition of Heritage Assets                                      55

REPORT OF INDEPENDENT AUDITORS
    Results of the Library of Congress FY 2009 Financial Statements Audit             56
    Independent Auditor’s Report                                                      58




                                                                                            i
                                                                              Management’s Discussion and Analysis



                              THE LIBRARY OF CONGRESS 

                             Management’s Discussion and Analysis 

                                       Fiscal Year Ended September 30, 2011


                                                  Introduction
The Management’s Discussion and Analysis (MDA) is designed to provide a high level overview of the Library:
who we are, what we do, and how we accomplished our mission during fiscal year 2011.


                                The Library of Congress and Its Mission
The Library of Congress, an agency in the legislative branch of the government, is the world's largest and most
comprehensive library, managing 92 collections – many of them having unique and irreplaceable items – in more
than 470 languages. It directly serves not only the Congress, but also the entire nation with the most important
commodity of our time: information.

The Library's mission is to make its resources available and useful to the Congress and the American people and to
sustain and preserve a universal collection of knowledge and creativity for future generations.


                                                  Strategic Plan
The Strategic Plan contains five discrete institution-wide strategic goals:
     Provide authoritative research, analysis, and information to the Congress
     Acquire, preserve, and provide access to a universal collection of knowledge and the record of America's
         creativity.
     Sustain an effective national copyright system.
     Lead and work collaboratively with external communities.
     Manage proactively for demonstrable results.

Through its Strategic Plan, the Library of Congress charts a course for achieving measurable results and codifies its
accountability to the American public and their elected representatives.

The strategic plan’s goals set broad outcomes to which each of the Library’s major organizations relates. It also
establishes broad strategies to be followed and define performance indicators to determine progress toward
achieving the goals and outcomes. Supported by a rigorous annual program performance planning process, and
regular program performance assessment reviews, the strategic plan ensures Library organizations are all working
toward common ends and provides the background for the Library’s annual Congressional Budget Justification.

During fiscal year 2010 the Library worked to revise the Library’s Strategic Plan. Along with a new mission and
more intuitive structure, the plan includes result statements and related annual objectives that were implemented in
fiscal year 2011.


                                                  Brief History
At the dawn of the 19th century, the American Republic was still little more than a bold experiment. Barely a decade
removed from the establishment of constitutional democracy, our lasting future as a nation was not yet assured and
our national character was only beginning to emerge.

It was in this context that the U.S. Congress created what would become one of the greatest and most distinct
American institutions. Mindful of the link between an informed people and functional governance, the Congress in


                                                                                                                        1
Management’s Discussion and Analysis


    1800 established the Library of Congress by appropriating $5,000 to purchase a collection of 740 books and three
    maps.

    President Thomas Jefferson would make early and indelible contributions to the growing Library, signing a law in
    1802 defining the institution’s roles and functions, creating the first joint congressional committee (the Joint
    Committee on the Library) and establishing the position of Librarian of Congress.

    After the British burned the Capitol during the War of 1812, destroying the Library’s collection of some 3,000
    volumes, it was Jefferson who again helped ensure that the Library of Congress would endure as a central
    contributor to American democracy, culture and intellect. Accepting the now-retired president’s offer to
    “recommence” the Library, in 1815 the Congress purchased Jefferson’s 6,487-volume personal collection (then the
    finest in America) at a price of $23,950. It contained books in many languages and on a wide variety of topics,
    reflecting Jefferson’s belief that there was “no subject to which a Member of Congress might not have occasion to
    refer.”

    While its origins were humble, six key milestones in the Library’s early decades significantly expanded its scope
    and reach:

        	   The establishment of the Law Library in 1832 as the first department of the Library of Congress recalled
             the Library’s origins as a collection of law books to support the legislative work of the Congress. The Law
             Library remains the primary source for the Congress for research and reference services in foreign,
             comparative, and international law.

        	   The Copyright Act of 1870 centralized the nation’s copyright functions in the Library and stipulated that
             two copies of every book, pamphlet, map, print, photograph, and piece of music registered for copyright in
             the United States be deposited in the Library. The law reflected Jefferson’s aspirations for the Library as a
             universal repository of knowledge.

        	   In 1886, the Congress authorized the first separate Library of Congress building to contain openly
             accessible reading rooms and exhibition space for the general public. In 1897, the Thomas Jefferson
             Building opened to the public.

        	   In 1902, the Congress authorized the Library to sell copies of its cataloging records inexpensively to the
             nation's libraries, thus substantially strengthening the entire American library system.

        	   In 1914, the Congress created the Legislative Reference Service (LRS) as a separate entity within the
             Library to provide specialized services to “Congress and committees and Members thereof.” Additional
             laws enhanced its mission in 1946 and 1970, when it was renamed the Congressional Research Service.

        	   In 1931, the Congress established a program in the Library to create and distribute free library materials to
             blind and physically handicapped readers throughout the country.

    Since the mid-1970s, Congress has statutorily created 10 programs that have further enhanced the Library’s national
    role.

        	   American Folklife Center (1976)
        	   American Television and Radio Archives (1976)
        	   National Center for the Book (1977)
        	   National Film Preservation Board (1988)
        	   National Film Preservation Foundation (1996)
        	   Cooperative Acquisitions Program Revolving Fund (1997)
        	   Sound Recording Preservation Board and Foundation (2000)
        	   Three additional revolving funds for fee services (2000)
        	   National Digital Information Infrastructure and Preservation Program (NDIIPP) (2000)
        	   Digital Collections and Educational Curricula Program (2005)


2
                                                                                Management’s Discussion and Analysis




                                       The Library of Congress Today
Today, as the Library of Congress advances further into its third century, there is still no more fitting a symbol of its
vision and aspirations than the Library’s 1897 building that bears Jefferson’s name. Constructed as a projection of
American optimism near the turn of the 20th century, the Thomas Jefferson Building is resplendent with iconography
and written inspirations that describe the Nation’s past and inspire those using the Library’s collections.

The gilded Torch of Knowledge surmounts the building, while on the underside of the dome, the mural Human
Understanding is embodied by a woman removing the veil of ignorance from her eyes. Below the dome is the
magnificent Main Reading Room, which was the Library’s original means of providing the information that is
critical to an informed citizenry.

As the Library of Congress extends its reach in the modern era, an information revolution is empowering not just
countries and commerce, but also individuals in the farthest reaches of the globe. Our mission remains the same, but
it is more important than ever when set against a landscape of dynamism and intense international competition.

In his June 2005 testimony to Congress, Librarian of Congress James H. Billington said: “Libraries are inherently
islands of freedom and antidotes to fanaticism. They are temples of pluralism where books that contradict one
another stand peacefully side by side on the shelves, just as intellectual antagonists work peacefully next to each
other in reading rooms.”

Those words hearken back to the Library’s early days and Thomas Jefferson’s vision of a society wherein the widest
variety of information was readily available to the greatest possible number of people. “I feel … an ardent desire,”
Jefferson said, “to see knowledge so disseminated through the mass of mankind that it may, at length, reach even the
extremes of society; beggars and kings.”

Through its strategic plan, the Library of Congress is accountable to the American public and their elected
representatives, and measured by the results that are achieved. We seek to be ardent champions furthering the cause
of human understanding and wisdom.

Past, present and future, the Library of Congress endeavors to remain the preeminent repository of information on a
global scale, an inspiration to future generations, and a celebrant of achievement.

The Librarian of Congress, appointed by the President with the advice and consent of the Senate, directs the Library.
Seven service units execute the Library’s mission (see organizational chart).

The Library’s programs and services are primarily funded by four salaries and expenses (S&E) appropriations (the
National and Law Library Services, Copyright administration, Congressional Research Service, and Books for the
Blind and Physically Handicapped), receipts from offsetting collections (copyright registrations, Cataloging
Distribution Service fees and Law Library Global Legal Information Network (GLIN) receipts), revolving fund
(business-like) income, donations and investment income.




                                                                                                                            3
Management’s Discussion and Analysis




                                            Chief of Staff                                                 The Librarian of Congress
                                                                                                                                                                                                Office of the Inspector General




                                                                                                                                                                                                  Copyright Royalty Judges




      Congressional Research                                                       Office of the Librarian                                                            Library Services                                               Office of Strategic
      Service                                                                                                                                                                                                                        Initiatives


      •Office of the Director                                                      •Congressional Relations Office                                         •Office of the Associate Librarian                                        •Office of the Associate Librarian

      •American Law                                                                •Development Office                                                     •Acquisitions & Bibliographic Access                                      •Digital Initiatives

      •Domestic Social Policy                                                      •Office of the Chief Financial Officer                                  •Collections & Services                                                   •Information Technology Services

      •Foreign Affairs, Defense and Trade                                          •Office of Communications                                               •Partnerships & Outreach Programs                                         •National Digital Information
                                                                                                                                                                                                                                      Infrastructure Preservation Program
      •Government & Finance                                                        •Office of the General Counsel                                          •Technology Policy
                                                                                                                                                                                                                                     •Teaching with Primary Sources
      •Resources, Science & Industry                                               •Office of Special Events and Public                                    •Administrative Services
                                                                                   Programs
      •Knowledge Services Group                                                                                                                            •National Audio-Visual Conservation Center

      •Administrative Operations                                                                                                                           •American Folklife Center

      •Communications Office

      •Review Office

      •Counselor to the Director

      •Finance & Administration

      •Congressional Information &
       Publishing

      •Information Management &
       Technology                                                                                                                                                                                 Office of Support
                                                       Copyright Office                                                        Law Library
      •Workforce Management &                                                                                                                                                                     Operations
       Development

                                                                                                                            •Office of the Law Librarian                               •Office of the Chief for Support Operations
                                                       •Office of the Register

                                                       •Office of the General Counsel                                       •Legal Research                                            •Human Resources Services
                                                                                                                            •Collections, Outreach &
                                                       •Policy & International Affairs                                                                                                 •Integrated Support Services
                                                                                                                            Services
                                                       •Administrative Services Office                                                                                                 •Office of Contracts and Grants Management
                                                                                                                            •Operations & Planning
                                                       •Copyright Technology Office                                                                                                    •Office of Opportunity, Inclusiveness and
                                                                                                                                                                                       Compliance
                                                      •Registration & Recordation Program

                                                      •Receipt Analysis & Control Division                                                                                             •Office of Security and Emergency
                                                                                                                                                                                       Preparedness
                                                      •Information & Records Division

                                                      •Copyright Acquisitions Division

                                                      •Licensing Division




    Library Services includes the National Library Service for the Blind and Physically Handicapped (within
    Partnerships and Outreach Programs); program costs are reported under the National Library Program.

    The Office of Strategic Initiatives includes Information Technology Services; program costs are reported under the
    National Library Program and infrastructure costs are allocated.


                                                                                 Overview of Financial Statements
    For fiscal years 2011 and 2010, the Library has prepared Consolidated Balance Sheets, Consolidated Statements of
    Net Costs, Consolidated Statements of Changes in Net Position, and Combined Statements of Budgetary Resources.

    Consolidated Balance Sheets

    The purpose of the consolidated balance sheet is to provide financial statement users with information about the
    Library’s assets, liabilities, and net position as of September 30, 2011 and 2010. In accordance with generally
    accepted accounting principles for federal government entities, the value of the Library’s collections (our largest
    asset) is not calculated and reported with a monetary value. Instead, the Library reports unit measurement, mission,
    and acquisition information in the financial statement notes (see Section 2), and provides other relevant information
    about their use, preservation, security, etc. in supplemental information (see Section 3). The Library’s Net Position


4
                                                                              Management’s Discussion and Analysis


consists of: (1) the portion of the Library’s appropriations that are unexpended; and (2) the cumulative balances of
gift, trust, revolving and reimbursable funds.




                                                                              (in millions)
                                     Assets                           FY 2011                 FY 2010
                 Entity Assets                                         $      554.7           $    578.8

                 Total Assets                                           $      554.7          $    578.8

                             Liabilities and Net Position             FY 2011                 FY 2010
                 Liabilities Covered by Budgetary Resources            $      128.3           $    126.4
                 Liabilities Not Covered by Budgetary Resources        $       35.8                 35.6
                 Total Liabilities                                     $      164.1           $    162.0
                 Net Position                                                 390.6                416.8
                 Total Liabilities and Net Position                    $      554.7           $    578.8

The Library’s assets total $554.7 million for fiscal year 2011 and $578.8 million for fiscal year 2010. Entity assets
decreased by $24.1 million during fiscal year 2011 primarily due to a decrease in the market value of Library
investments and appropriations, and a change in accounting for pledges receivable. The Library’s liabilities total
$164.1 million and $162.0 million for fiscal years 2011 and 2010, respectively. Significant liabilities include funds
advanced from other governmental agencies for the Federal Library and Information Network (FEDLINK) and other
intra-governmental revolving fund programs and accounts payable for various operating expenses.

In general, the accompanying Balance Sheets do not include the acquisition and improvement costs of the Library's
buildings and grounds. By law, these buildings and grounds are under the structural and mechanical care of the
Architect of the Capitol.

Consolidated Statements of Net Costs

The purpose of the Consolidated Statements of Net Costs is to provide financial statement users with information
about the costs and earned revenues for the Library’s six programs for the fiscal years ended September 30, 2011
and 2010. In other words, the statements present the net costs of our programs $778.0 million and $803.0 million
for the fiscal years 2011 and 2010, respectively. Net costs include allocated management support costs (e.g., human
resources, financial services, facility services).

The net costs for each of the Library’s six programs are:




                                                                                                                        5
Management’s Discussion and Analysis



                                              Consolidated Statement of Net Costs
                                                                           (in millions)
                                         Fiscal Year 2011 - $778.0M                            Fiscal Year 2010 - $803.0M

                               $481.0
             $500 $473.0

             $450
             $400

             $350

             $300
             $250

             $200                                                                   $148.4
                                                                           $141.3
             $150
                                                                                                           $89.4
             $100                                                                                $80.6
                                                                 $42.8
                                                     $43.4
              $50                        $25.1 $25.5                                                                    $14.6 $15.9

               $0
                    N ational L ibrary     Law Library   Copyrigt Office     Congressioinal      Nat'l Lib Serv fo r   Reimbursing and
                                                                            Research Service    Blind & Pys Hand       Revolving Funds




    National Library - With net program costs of $473.0 million and $481.0 million for fiscal years 2011 and 2010,
    respectively, National Library is the Library’s largest program and is responsible for the traditional library activities
    of acquisitions, cataloging, research and reference, and preservation.

    National Library manages the following programs and services:

        Acquisitions – Each year the Library acquires more than two million new items in all formats for addition to its
        priceless collections, which are the largest and most wide-ranging of any library in the world. The collections,
        and the information they contain, are the foundation for the many services the Library provides to the Congress
        and the nation.

        Cataloging – The Library produces bibliographic records, standards, and related products for the Library as
        well as for libraries and bibliographic utilities in all fifty states and territories and many other countries.

        Research and Reference – The Library makes available to scholars and other researchers vast information
        resources, many of which are unique, covering almost all formats, subjects, and languages. The Library
        provides reference assistance to researchers and the general public, conducts field research, and promotes the
        preservation of American culture throughout the United States. The Library responds to nearly 483,000
        information requests a year from across the nation, including nearly 162,000 in person in the reading rooms
        open to the public in Washington. In addition, the Library responds to approximately 58,400 free interlibrary
        loan requests from across the nation and 35,700 requests for book loans from the Congress each year.

        Online Access Services – The Library provides free online access via the Internet to some of its collections and
        to its automated information files to Congressional offices, federal agencies, libraries, schools, and the public.
        Internet-based systems include three World Wide Web (WWW) services (e.g., THOMAS, www.loc.gov,
        www.copyright.gov), the Library of Congress Online Public Access Catalog (http://catalog.loc.gov), and
        various file transfer options.

        American Creativity – The Library manages the nation’s largest, most varied, and most important archival
        collection of American creativity including motion pictures, sound recordings, maps, prints, photographs,
        manuscripts, music, and folklore covering a wide range of ethnic and geographic communities.



6
                                                                               Management’s Discussion and Analysis


    Preservation – The Library manages a continuing program to preserve and extend the life of the diverse
    materials and formats in the Library's collections. The program provides a full range of prospective and
    retrospective preservation treatment for hundreds of thousands of items a year; conducts research into new
    technologies; emphasizes preservation techniques including proper environmental storage and training for
    emergency situations; conserves and preserves materials; and reformats materials to more stable media. The
    Library plays a key role in developing national and international standards that support the work of federal, state,
    and local agencies in preserving the nation's cultural heritage.

    Reading Promotion and Outreach – The Library promotes books, reading, and literacy through the Library's
    Center for the Book, its affiliated centers in 50 states and the District of Columbia, and more than 80 national
    organizational partners. The Library encourages knowledge and use of its collections through other outreach
    programs (cable TV, lectures, publications, conferences and symposia, exhibitions, poetry readings – all
    primarily supported by private funding) and through use of the Library's home page on the World Wide Web.
    The Library also gives surplus books annually to qualified libraries and nonprofit educational institutions
    through its nationwide donation program. Finally, the eleventh National Book Festival, expanded to two days,
    was held on the National Mall on September 24-25, 2011, and set a new attendance record with an estimated
    200,000 attendees, many of whom traveled great distances to participate.

    Digital Initiatives – The Library oversees and coordinates cross-institutional digital initiatives, including the
    NDIIPP, thereby ensuring access over time to a rich body of digital content through the establishment of a
    national network of committed partners, collaborating in a digital preservation architecture with defined roles
    and responsibilities.

Law Library – The Law Library of Congress, with net program costs of $25.1 and $25.5 million for fiscal years
2011 and 2010, respectively, provides direct research service to the Congress in foreign, international, and
comparative law. In addition to Members, Committees of the Congress and the Congressional Research Service, the
Law Library provides officers of the legislative branch, Justices of the Supreme Court and other judges, members of
the Departments of Homeland Security, State and Justice, and myriad other federal agencies with bibliographic and
informational services, background papers, comparative legal studies, legal interpretations, expert testimony, and
translations of laws and legal documents. The Law Library makes its collections and services available to a diverse
community of users, including members of the bench and bar, educational institutions, nongovernmental libraries,
legal service organizations, the diplomatic corps, international organizations, the business community, and the
general public.

Copyright Office (including the Copyright Royalty Board) – The Copyright Office (COP), with net program
costs of $43.4 million and $42.8 million for fiscal years 2011 and 2010, respectively, administers the U.S. copyright
laws, provides copyright policy analysis to the Congress and executive branch agencies, actively promotes
international protection for intellectual property created by U.S. citizens, and provides public information and
education on copyright. In fiscal year 2011, the COP registered 670,044 claims to copyright; transferred 706,583
works to the Library; recorded 10,298 documents containing more than 170,000 titles; logged more than 24 million
page views on its web site; and responded to 261,807 in-person, telephone and e-mail requests for information.
The Copyright Royalty Board (CRB), composed of three Copyright Royalty Judges and their staff under the aegis of
the Librarian of Congress, directed distribution of hundreds of millions of dollars in royalties that are collected
under various compulsory license provisions of the copyright law, and adjusts the royalty rates of these license
provisions. Registration fees and authorized deductions from royalty receipts fund almost half of the COP. Copies
of works received through the copyright system form the core of the Library’s immense Americana collections,
which provide the primary record of American creativity.

Congressional Research Service – The Congressional Research Service (CRS), with net program costs of $141.3
and $148.4 million for fiscal years 2011 and 2010, respectively, provides non-partisan analytical research and
information services to all Members and committees of the Congress. CRS assists the Congress with its
deliberations and legislative decisions by providing objective, authoritative, non-partisan, and confidential research
and analysis. Serving Congress exclusively, CRS experts work alongside the Congress at all stages of the legislative
process and provide integrated and interdisciplinary analysis and insights in all areas of policy interest. CRS support
takes the form of reports, tailored confidential memoranda, individual consultations and briefings, and formal
seminars.


                                                                                                                           7
Management’s Discussion and Analysis



    National Library Service for the Blind and Physically Handicapped (NLS/BPH) – The NLS/BPH, which is part
    of Library Services, manages a free national reading program for blind and physically handicapped people –
    circulating approximately 26.7 million items a year at no cost to users. This program consists of three elements:

        1.	 The Library of Congress selects, produces, and contracts for the production of full-length books and
            magazines in Braille, on recorded disc, and on talking book machines. The NLS/BPH’s fiscal years 2011
            and 2010 net program costs for this segment were $80.6 and $89.4 million, respectively.

        2.	 A cooperating network of 56 regional and 47 subregional (local) libraries distribute the machines and
            library materials provided by the Library of Congress.

        3.	 The U.S. Postal Service receives an appropriation to support postage-free mail for magazines, books, and
            machines, which are sent directly to readers. Reading materials (books and magazines) and playback
            machines are sent to a total readership of 586,981 audio and Braille readers registered individually, in
            addition to 245,136 eligible individuals located in institutions.

    Revolving and Reimbursable Funds – Under the authority of 2 U.S.C. 182, the Library operates the Cooperative
    Acquisitions Program revolving fund, the revolving fund for duplication services associated with the Packard
    Campus for Audio-Visual Conservation, the revolving fund for gift shop, decimal classification, photo duplication,
    special events and public programs and related services, and the revolving fund for the Federal Library and
    Information Network (FEDLINK) program and Federal Research program. 2 U.S.C. 182 was amended in fiscal
    year 2003 to authorize the Library’s special events and programs activities under the revolving fund statute.
    Through these activities, the Library is able to further its programs dealing with the acquisition of library materials,
    reader and reference services, and support for public programs. The Library also provides reimbursable accounting
    services for five legislative agencies under cross-servicing agreements (i.e., the Congressional Budget Office, the
    Office of Compliance, the Abraham Lincoln Bicentennial Commission, the Open World Leadership Center, and the
    United States Capitol Police).

    After reflecting earned revenues of $92.6 and $94.3 million in fiscal years 2011 and 2010, respectively,
    reimbursable and revolving fund net program costs totaled $14.5 and $15.9 million, respectively. The net program
    costs were the result of the elimination of $6.3 and $7.3 million of intra-Library net revenues, $9.5 and $9.0 million
    in allocated administrative overhead, $1.7 and $2.2 million in imputed inter-governmental costs (e.g., employee
    benefits) not recovered by fees charged by the revolving funds for fiscal years 2011 and 2010, respectively.

    General descriptions of major revolving fund activities are:

        Cooperative Acquisitions Program – The Cooperative Acquisitions Program, which is operated by the
        Library’s six overseas field offices, acquires foreign publications and research materials on behalf of
        participating academic and research institutions on a cost-recovery basis. Earned revenues were $3.3 million
        for fiscal year 2011 and $2.9 million for fiscal year 2010.

        Duplication Services – Duplication Services provides preservation services for the Library's audio and visual
        collections, and products are also produced for sale to the general public. Earned revenues for fiscal years 2011
        and 2010 were $0.1million and $0.1 million, respectively.

        Gift Shop, Decimal Classification, Document Reproduction and Microfilm Services, Special Events and
        Programs and related services – This revolving fund provides for the operation of a gift shop or other sales of
        items associated with collections, exhibits, performances, and special events of the Library of Congress;
        decimal classification development services; the preservation and microfilming services for the Library's
        collections and reproduction services to other libraries, research institutions, government agencies, and
        individuals in the United States and abroad; and the hosting of special events and programs by corporate and
        non-profit entities that support the Library’s mission. Earned revenues were $6.4 million and $6.1 million in
        fiscal years 2011 and 2010, respectively, and intra-Library transactions of $1.7 million and $1.3 million were
        eliminated during consolidation.




8
                                                                                 Management’s Discussion and Analysis


    The FEDLINK program and Federal Research Program (FRP) – FEDLINK serves federal libraries and
    information centers as their purchasing, training and resource-sharing consortium. As the Federal Library and
    Information Center Committee (FLICC) business subsidiary, the program provides cost effective access to an
    array of automated information and retrieval, print serials, books, electronic publications and preservation
    services. FEDLINK contracts with more than 130 major vendors to provide services to federal offices
    participating in the program, saving the offices in cost avoidance benefits and in vendor volume discounts. FRP
    provides customized research services that the Library is uniquely able to perform as a result of its collections
    and the subject and language expertise of its staff. A popular FRP product, available on-line via the Library's
    home page, is the country study series of books. In fiscal years 2011 and 2010, earned revenues were $83.9 and
    $87.9 million, respectively, and intra-Library transactions of $2.0 million and $1.0 million were eliminated
    during consolidation.

Consolidated Statements of Changes in Net Position

The purpose of the Consolidated Statements of Changes in Net Position is to provide financial statement users with
information about the Library’s financing sources and the components of the changes in net position. The Library’s
financing sources totaled $768.4 million and $812.9 million for the fiscal years ended September 30, 2011 and 2010,
respectively.

                     Consolidated Statements of Changes in Net Position
                                   Total Financing Sources
                                                      (in millions)
                        Fiscal Year 2011: $768.4M                 Fiscal Year 2010: $812.9M

                             $642.9
            $700    $637.3

            $600

            $500

            $400

            $300

            $200
                                                       $101.5 $102.7
                                              $58.7
            $100                      $29.4                               $0.2 $8.6

              $0
                   Appropriations     Donations           Imputed       Other Non
                       Used                              Financing      Exchange
                                                                        Revenue


The major source of the Library’s funding is from Congressional appropriations for five programs: National Library,
Law Library, Copyright Office, Congressional Research Service, and National Library Service for the Blind and
Physically Handicapped. Appropriations used during the fiscal years ended September 30, 2011 and 2010 totaled
$637.3 and $642.9 million or 83 and 79 percent for fiscal years 2011 and 2010, respectively, of all financing. Along
with appropriations made directly to the Library, other government agencies (i.e., the Architect of the Capitol, the
Office of Personnel Management, Government Printing Office, U.S. Treasury, and U.S. Capitol Police) used
Congressional appropriations and other financing sources to provide support for the Library’s programs totaling an
estimated $101.5 and $102.7 million (imputed financing) for fiscal years 2011 and 2010, respectively. The support
provided included structural care and maintenance of the Library’s buildings and grounds ($62.6 million and $59.9
million), employee benefits ($36.0 million and $38.4 million), acquisitions exchange services ($1.3 million and $1.2
million), legal claims ($0.2 million and $1.8 million) and collections security services ($1.4 million and $1.3
million). Other non-exchange revenues are positive and negative for fiscal years 2011 and 2010, primarily due to the
unrealized loss or gains on non-treasury investments.



                                                                                                                        9
Management’s Discussion and Analysis



     Combined Statements of Budgetary Resources

     The Combined Statements of Budgetary Resources and the related disclosures provide information about how
     budgetary resources were made available, as well as their status at the end of the period. The Budgetary Resources
     section of the statement presents the total budgetary resources available to the Library. The Status of Budgetary
     Resources section of the statement presents information about the status of budgetary resources at the end of the
     period. Finally, the Outlays section presents the total outlays of the Library and relates obligations incurred to total
     outlays.

     The Library’s budgetary resources were $0.9 billion and $2.1 billion for the fiscal years ended September 30, 2011
     and 2010, respectively, of which $0.7 billion and $0.7 billion were from appropriated funds and $0.2 billion and
     $1.4 billion were from non-appropriated funds for fiscal years ended September 30, 2011 and 2010, respectively.
     Total outlays of $656.7 million and $1,838.0 million were incurred with the outlays of appropriated funds ($635.7
     million and $636.9 million) combined with outlays of the non-appropriated funds ($21.0 million and $1,201.0
     million) in fiscal years 2011 and 2010. The decrease in non-appropriated outlays is due to a 2010 transfer of $1.2
     billion in assets from the Copyright Licensing Fiduciary Special Fund which was in the budget to the Copyright
     Licensing Fiduciary Deposit Fund which is not in the budget as authorized by OMB and US Treasury.


                                    Performance Targets and Accomplishments

     At the beginning of fiscal 2011, the Library published the Library of Congress Strategic Plan Fiscal Years 2011 –
     2016. This six-year strategic plan describes specific, measurable results the Library plans to achieve by the end of
     fiscal year 2014. From the result statements, the Library developed logical, incremental annual objectives for fiscal
     years 2011, 2012, and 2013 that would ensure a Library-wide focus on the desired results for 2014.

     This section presents those annual objectives and related performance targets grouped by their respective
     connections to the Strategic Plan’s five goals: (1) Provide authoritative research, analysis, and information to the
     Congress; (2) Acquire, preserve, and provide access to a universal collection of knowledge and the copyrighted
     record of America’s creativity; (3) Sustain an effective national copyright system; (4) Lead and work collaboratively
     with external communities to advance knowledge and creativity; and (5) Manage proactively for demonstrable
     results.


     Strategic Plan Goal: Provide authoritative research, analysis, and information to the Congress.

              Annual Objective: The Library has identified methods for understanding client needs/behavior and
              assessing alignment of products and services with the congressional agenda, using tools such as: (1) Web
              analytics (to understand Web site usage), (2) Client Relationship Management Systems (to understand
              requests for expertise, research, services), and (3) Client feedback mechanisms.

                   Performance Target: The Congressional Research Service (CRS) will develop the means for
                   CRS.gov users to personalize their experience by setting up accounts and receiving customized
                   content – a feature that will provide CRS insight into client behavior and demand for its products and
                   services.

                       Accomplishment: The personalization functionality was deployed on time and enables
                       congressional users of CRS.gov to customize their experience on the website. Users can subscribe
                       to content that can be pushed to them in a variety of ways and streamline their placement of
                       requests for CRS information and analysis.

              Annual Objective: The Library has identified data needs in support of acquiring and organizing
              information relevant to a broader range of areas aligned with the congressional agenda.




10
                                                                     Management’s Discussion and Analysis


     Performance Target: CRS has assessed its data collections and developed a strategy for acquiring
     and organizing research data materials aligned with the congressional agenda and established target
     implementation dates.

        Accomplishment: While data collection and strategy development were not completed, the
        information-gathering process has revealed the need for a broader consideration of data acquisition
        and management, with three additional Library Service Units (SUs) joining in this effort. This
        broader effort has resulted in enhanced intra-Library cooperation and cohesiveness, and set the
        groundwork for more efficient service to clients, leveraging existing resources, and limiting
        duplication of effort. A firm foundation has been laid for a more comprehensive strategy of data
        acquisition in line with client needs.

Annual Objective: The Library has prepared a requirements document in support of the next generation
legislative information system platform and services.

     Performance Target: Investment Charter: Complete an Executive Committee (EC)-approved 

     investment charter, including high-level plans that meet the strategic objective and demonstrate 

     integration with the over-arching, Library-wide cyclical investment in technology infrastructure by

     5/31/2011. 


     Performance Target: Requirements: Complete an approved set of requirements appropriate for in-

     sourcing or outsourcing the design of the next-generation legislative information systems platform and 

     services. Requirements are necessary before advancing to the fiscal 2012-scheduled design phase. 


     Performance Target: Legislative Data and Documents: Prepare legislative data and documents to be

     compatible with the next-generation legislative information systems platform and services. 

     Legislative data efforts include XML schema search optimization, scanning historic documents, 

     acquisition, and creation of meta data for new types and back files of documents, and building

     schemas for new types and back files of documents. 


     Performance Target: Search Solution: Select a search system for the next generation legislative 

     information systems platform and services. Requirements are necessary before advancing to the fiscal

     2012-scheduled design phase. 


        Accomplishment: The four performance targets for this annual objective involved an investment
        charter, information and functional requirements, legislative data and documents, and selection of
        a search solution. Directions established by the Web Governance Board in consideration of the
        Library’s entire web presence superseded the four targets. A Library web strategy and
        information architecture strategy were developed that address the Library's three core areas of
        content, including legislative information. A technical plan was formulated based on this
        information architecture strategy, and a Library-wide team of technical and subject matter experts
        was formed to deliver a completely new legislative system with significant enhancements.

Annual Objective: The Library has developed criteria to assess timeliness, breadth, depth of coverage,
and interdisciplinary collaboration.

     Performance Target: Drawing on various management information systems, CRS will generate
     criteria to assess timeliness, breadth, depth of coverage, and interdisciplinary collaboration.

        Accomplishment: Revised monthly reporting on products and services began on time and
        provided a snapshot of CRS-wide productivity. In addition, by pursuing a case study approach of
        examples of the major categories of its work for Congress, CRS created a set of working
        definitions for the various attributes of its work (timeliness, breadth, depth, collaboration) as well
        as additional indicators for further investigation. This work will feed directly into fiscal 2012’s
        follow-on annual objective and target.



                                                                                                                 11
Management’s Discussion and Analysis



             Annual Objective: The Library has developed data (including baseline indicators) to assess client needs
             for mobile device access to products and services.

                  Performance Target: CRS has developed data to assess client needs for mobile device access to
                  products and services.

                      Accomplishment: CRS successfully completed the necessary analysis to satisfy all fiscal 2011
                      milestones. By the end of the fiscal year CRS had surveyed Legislative Branch agencies or
                      organizations, confirmed its ability to track mobile access to CRS.gov, and analyzed client
                      feedback. Improving mobile access to CRS.gov is critical to enhancing CRS’ communication
                      support to Congress. The fiscal 2011 efforts laid a foundation for improving this essential service
                      to Congress in fiscal years 2012 and 2013.

             Annual Objective: The scope of training requirements for Congressional members and staff has been
             defined and baseline target indicators established.

                  Performance Target: By the end of fiscal 2011, the Library will have an inventory of training
                  offered by all Capitol Hill offices (House/Senate) of training offered by all Capitol Hill offices
                  (House/Senate)

                      Accomplishment: The inventory was developed and will provide a basis for determining if
                      training duplication exists. It will also identify training gaps and guide the development of new or
                      modify existing training to fill those training gaps as resources are available.


     Strategic Plan Goal: Acquire, preserve, and provide access to a universal collection of knowledge and the
     copyrighted record of America’s creativity.

             Annual Objective: The Library has established a centralized collections development group to analyze
             collections, set acquisitions strategies, and allocate acquisitions resources.

                   Performance Target: Formal approval of a Collection Development Office creation and
                   implementation plan has been accomplished and labor negotiations successfully completed.

                      Accomplishment: Three of the five milestones for this target were completed: initial approvals
                      for the Collections Development Office and its implementation plan were obtained; labor
                      negotiations were successfully completed; and the Collections Development Officer position was
                      classified. Library Services is now prepared to complete the remaining two milestones: obtain
                      final Human Resources Services and Office of the Librarian approval. The Collections
                      Development Officer position will be filled by the end of the first quarter or early second quarter
                      of fiscal 2012.

             Annual Objective: The Library is receiving electronic-only serials through mandatory deposit. (i.e.,
             content available only in electronic form)

                   Performance Target: Receive and ingest 40 electronic-only serials titles into the Library's
                   collections for management by Library staff, by September 30, 2011.

                      Accomplishment: The receipt of 85 serial titles from 25 publishers with over 36,000 files
                      allowed the Library to begin adding material in a media not previously collected. Publishers were
                      generally willing to comply and provided more content files than required by law and frequently
                      provided full runs of back issues of the requested titles.




12
                                                                     Management’s Discussion and Analysis


Annual Objective: The Library has prepared a requirements document for new and existing forms of
digital content, which includes criteria for its authentication and storage.

     Performance Target: By the end of fiscal year 2011, a requirements document is completed, which
     addresses three aspects of managing converted (or to be converted) and born-digital forms of content,
     which are of interest to Law Library, CRS, Copyright Office, Library Services, and Office of
     Strategic Initiatives. The three aspects are: 1- Content ingest, 2- Content authentication, and 3-
     Content storage. Content storage requirements will include: 1- Short-term storage for receiving and
     processing digital content, and 2- Long-term storage for preservation of and access to digital content.

         Accomplishment: While the requirements document was not completed, the drafts were
         reviewed, digital content lifecycle categories were assigned to all requirements, and input was
         received from team members on requirements that needed clarification. The needed gap analysis
         for the requirements document was not completed. This means that the list of requirements does
         not yet fully address any of the identified but missing requirements. The intention is to have this
         requirements document completed before December 31, 2011.


Annual Objective: The Library has transferred 65 percent of designated special format materials to Ft.
Meade Modules 3 and 4.

     Performance Target: The Library will have transferred 108,028 containers.

         Accomplishment: During the year, more than 164 thousand track-able containers were
         transferred to Ft. Meade Modules 3 & 4 for storage in better environmental conditions. The total
         transferred represents 69 percent of the 3-year target and exceeded the annual target by almost six
         percent.

Annual Objective: The Library has assessed, housed, stabilized, mass deacidified, bound, reformatted, or
otherwise prepared over 5 million high value, high use, and/or at-risk items in all formats.

    Performance Target: The Library supports the preservation activities listed in the annual objective in
    order to ensure long-term access to its collections.

         Accomplishment: The Library preserved over 8 million high value, high use, and/or at-risk items
         for use in exhibits, scanning projects, and reading rooms during fiscal 2011. The various forms of
         treatment ensure better long-term access to the collections.

Annual Objective: The Library has identified criteria for the preservation of digital material.

    Performance Target: Complete an inventory of practices for the lifecycle management of digital
    material.

         Accomplishment: During fiscal 2011, the Digital Preservation Working Group (DPWG) created
         a wiki outlining known policies and procedures for life-cycle management for digital materials for
         the Library and its partners. During the fourth quarter of the fiscal year, the DPWG used this
         information to create a Digital Preservation Policy Analysis Matrix correlating preservation
         models and strategies of major programs. The gaps identified through this process will facilitate
         the next stage of this important work which will focus on developing a proposal and adoption plan
         for guidelines, best practices and workflows for the preservation of digital materials.

Annual Objective: Secure the approximately 40,000 volumes of rare material currently housed in the
LAW stacks in a secure storage vault which meets both environmental and collection security standards.




                                                                                                               13
Management’s Discussion and Analysis


               Performance Target: By the end of fiscal 2011, the Law Library will explore the availability and
               suitability of alternative locations both on-campus and off-campus for securing the approximately
               40,000 volumes of rare material currently housed in the LAW stacks.

                   Accomplishment: LAW explored the availability and suitability of alternative locations and
                   determined the only option for safe, secure, and environmentally friendly storage for the 36,500
                   pre-1801 volumes in the closed stacks is construction of the planned third floor vault in the
                   Madison Building. Phase 1 of the Secured Storage Facilities was included as priority #2 in the
                   Library's fiscal 2013 Client Request Memo to the Architect of the Capitol.

           Annual Objective: The Information Architecture for the Library’s web presence is completed.

               Performance Target: High-level information architecture for the three core areas was completed by
               the end of fiscal 2011. The core areas, as identified in the web strategy are: National Library,
               Congress/Legislative information, and Copyright. "Completed" is defined as approval of the Web
               Governance Board.

                   Accomplishment: The high-level information architectures for the three core areas were
                   completed. The information architecture strategy creates a web presence easier for users to search
                   and to browse.

           Annual Objective: The Library has defined criteria for user satisfaction with online access and baseline
           target indicators established.

               Performance Target: Define criteria for user satisfaction with online access and establish baseline
               target indicators by the end of fiscal 2011.

                   Accomplishment: A core set of Key Performance Indicators (KPIs) was identified and piloted.
                   A policy on using KPIs was drafted and was presented for approval before the end of the year.
                   The identified tools to measure user satisfaction and baseline target indicators will be used for
                   pilot projects during fiscal 2012.

           Annual Objective: The Library has evaluated the Library of Congress Experience. Successful elements
           were incorporated into ongoing operations and unsuccessful elements were discontinued.

               Performance Target: The Library will have prepared, for Librarian and EC approval, an analysis
               with recommendations for incorporating the Library of Congress experience into ongoing operations
               by September 15, 2011.

                   Accomplishment: The required report is complete. It details the prioritized spending plan for the
                   next two years.

           Annual Objective: Material shelved under "LAW" will have been reclassified to the Class K schedule by
           fiscal 2020.

               Performance Target: Reduce the backlog by greater than 20,000 volumes.

                   Accomplishment: LAW reduced the backlog by more than twice the targeted 20,000 volumes
                   resulting in more efficient retrieval and quicker service to Congress and the public. The inventory
                   of these retrospective volumes corrects many access problems. The items are also now shelved
                   under a unique K class number, resulting in an additional clean access point.

           Annual Objective: Launch the One World Law Library (OWLL) with guidelines for proofs of concept
           and best practices standards.




14
                                                                             Management’s Discussion and Analysis


             Performance Target: By the end of fiscal 2011, develop an eight-year strategic plan for OWLL.

                 Accomplishment: LAW completed a more detailed business plan in lieu of a high level strategic
                 plan. This plan creates a foundation and road map for the development of OWLL that are aligned
                 with both the Library’s and LAW’s strategic plans. The business plan also reinforces the
                 alignment of OWLL with the Library's web governance structure and processes.

Strategic Plan Goal: Sustain an effective national copyright system.

        Annual Objective: The Library organizes annually, in conjunction with the World Intellectual Property
        Organization (WIPO), the training of copyright officials from developing countries and countries in
        transition.

             Performance Target: Educate and train foreign copyright officials by organizing, in conjunction
             with WIPO, one or more training sessions for copyright officials from developing countries and
             countries in transition during 2011 and/or 2012.

                 Accomplishment: During the year, COP trained 47 registration and other officials from 20
                 countries. As a result, those officials have a better understanding of U.S. copyright law and
                 registration practices and will be able to improve protection of creative works and administration
                 of copyright in their own countries.

        Annual Objective: The Library has completed the pre-1972 sound recording report, required by the fiscal
        2009 Legislative Branch Appropriations Bill.

             Performance Target: Initiate the pre-1972 sound recording report, required by the fiscal 2009
             Legislative Branch Appropriations Bill, to be completed by December 31, 2011.

                 Accomplishment: COP is on track to complete the required report by the end of calendar year
                 2011. The report will assist Congress’ decision whether to federalize protection of pre-1972
                 sound recordings.

        Annual Objective: COP has completed the digitization of 25 percent copyright card catalog records from
        1923-1977.

             Performance Target: Increase the number of digitized pre-1978 historical records from the
             Copyright Card Catalog by ten million, by September 30, 2011.

                 Accomplishment: COP scanned and archived more than the target of 10 million cards and
                 scanned 318 Catalog of Copyright Entries volumes. Scanning provides protection in the event of
                 loss of the originals and starts the process for making these records accessible online. The scanned
                 Catalog volumes are already accessible online.

        Annual Objective: The Library has developed a requirements document for improving client interface
        and public records access for electronically-available copyright records and licensing functions.

             Performance Target: Develop standards and requirements for improving client interface and public
             records access; specifically, evaluate how people use copyright information/data, what they use them
             for, and how the Office can improve the interface, by March 31, 2012

                 Accomplishment: During the year, COP representatives began meeting with the Library’s Web
                 Governance Board to plan out tasks and objectives for fiscal 2012. As a result, COP gained a
                 substantial amount of information from the “Information Architecture Strategy Part III: Copyright
                 Report.” COP’s efforts will now be aligned with the Web Governance Board’s Library-wide
                 objectives.



                                                                                                                        15
Management’s Discussion and Analysis



             Annual Objective: The Library has completed the report on market alternatives to statutory licensing
             assigned in the Satellite Television Extension and Localism Act of 2010.

                  Performance Target: Complete the report on market alternatives to statutory licensing assigned in
                  the Satellite Television Extension and Localism Act, by August 27, 2011.

                     Accomplishment: COP delivered the required report to Congress on August 29, 2011. The
                     report recommended phasing out statutory licenses for cable operators and satellite carriers. The
                     report also advised Congress how to phase out statutory licenses in favor of marketplace solutions
                     without causing undue disruption to consumers and undue hardship to the affected industries.

             Annual Objective: COP has developed a requirements document for online cable licensing.

                  Performance Target: Develop a functional requirements document for online cable licensing
                  interface, by September 30, 2011.

                     Accomplishment: The project’s Functional Requirements Document was developed on time and
                     will lead to work on the first phase. When implemented, the new system will improve the
                     submission of royalties and fund administration processes.

             Annual Objective: COP has significantly reduced the number of workable copyright registration claims
             on hand.

                  Performance Target: Reduce the number of workable copyright registration claims on hand to 150
                  thousand by March 31, 2011 and to 130 thousand by September 30, 2011.

                     Accomplishment: COP reached the target of 150 thousand on-hand claims in early April 2011
                     and the target of 130 thousand by the end of May, four months early. This resulted in clients
                     receiving their registration certificates more quickly.

     Strategic Plan Goal: Lead and work collaboratively with external communities to advance knowledge and
     creativity.

             Annual Objective: The Library has developed a requirements document for needed information
             description and data exchange tools.

                  Performance Target: The Library has developed a requirements document for needed information
                  description and data exchange tools.

                     Accomplishment: The requirements document was completed by September 30, 2011. It
                     describes the Library's requirements for a suite of services that can be implemented either as a
                     system or as a suite of integrating software tools to enhance the exchange of digital content and
                     metadata.

             Annual Objective: The Library has developed a list of major collaborations and their alignment with LC
             Strategic goals.

                  Performance Target: The Team will develop an institution-wide definition of "collaboration" which
                  is sufficiently clear to allow the service units to determine which relationships to list as collaborations.

                     Accomplishment: The annual objective team developed and approved a Library-wide definition
                     for collaboration. The definition guided development of the collection of collaborative
                     relationships list.




16
                                                                                   Management’s Discussion and Analysis


                Performance Target: The Team will produce a consolidated inventory of collaborative relationships.

                Performance Target: In order to ensure alignment between this annual objective and the strategic
                plan, the Annual Objective (AO) Team will evaluate each collaboration and identify its relation to the
                Strategic Plan.

                     Accomplishment: For the preceding two targets, SUs completed the inventory of collaborative
                     relationships identifying 846 relationships and linking them to the Library’s Strategic Plan. The
                     completed Inventory of Collaborative Relationships contributes to the achievement of Library
                     Strategic Goals in several ways: first, senior management will have a comprehensive picture of
                     the numerous collaborative relationships the Library maintains with national and international
                     partners (Goal 4) 1 ; second, ongoing refinement of the data will reveal more precise connections
                     between the locations of our collaborators and congressional representatives (Goal 1); and, third,
                     the inventory provides the basis for eventual analysis of costs and benefits which could inform
                     future funding decisions (Goal 5).

           Annual Objective: The Library has developed an organizational framework for coordinating its
           conservation research with partners and other research facilities.

                Performance Target: The Library of Congress has an entity authorized to coordinate conservation
                research.

                     Accomplishment: Library of Congress Regulation (LCR) 213, “Functions and Organization of
                     Library Services,” was edited to incorporate language defining the Preservation Directorate's
                     authority to establish a conservation research framework with external institutions. When
                     approved, the LCR will authorize the Preservation Research and Testing Division to collaborate
                     and coordinate with external institutions conducting research programs to leverage resources,
                     avoid duplication of effort, and form the basis for a nationally coordinated preservation research
                     agenda.

           Annual Objective: Contract for the production of 50,000 digital players and the production of 1,000
           copies each of 2,000 new digital titles.

                Performance Target: Contract for the production of 50,000 digital players.

                     Accomplishment: The contract to exercise the first option year and the first delivery order for
                     50,000 Digital Talking Book (DTB) players was awarded in June 2011. This effort will begin to
                     place the new DTB players in the hands of Library clients.

                Performance Target: Contract for the production of 1,000 copies each of 2,000 new digital titles.

                     Accomplishment: Awarded contracts for the creation of 1,900 titles (94 percent of the target of
                     2,000 titles). This will provide a significant number of new titles to the users of the new DTBs.


Strategic Plan Goal: Manage proactively for demonstrable results.

           Annual Objective: The Library's Enterprise Architecture (EA) represents a conceptual, methodological,
           and analytical framework for identification, collection, and validation of architecturally relevant data,
           representing internal and external relationships and dependencies, to currently or potentially answer
           identified business questions.

                 Performance Target: By September 30, 2011, establish a conceptual, analytical, and methodological

1
    See the text of the five strategic plan goals in the second introductory paragraph on the first page of this section.


                                                                                                                            17
Management’s Discussion and Analysis


                framework which accommodates Architectural data identification, collection, and validation.

                   Accomplishment: By the end of the fiscal year, collected all relevant documentation and
                   incorporated it into the tabular EA framework. The Framework facilitates EA development,
                   collaboration, presentation, and implementation and helps ensure efficient use of information
                   technology resources.

           Annual Objective: The Library has established policies and processes for flexible workplace and off-site
           Continuity of Operations Plan (COOP) activities.

                Performance Target: By the end of fiscal 2011, ensure all relevant LCRs and CBAs support flexible
                workplace and off-site COOP activities.

                   Accomplishment: Human Resources Services (HRS) reviewed policies and processes to ensure
                   integration of flexible workplace activities with the Continuity of Operations Plan (COOP).

           Annual Objective: The Library’s strategic goals drive Office of Support Operations (OSO) infrastructure
           annual performance plans.

                Performance Target: Human Capital Management Plan (HCMP): Increase the proportion of
                Library-wide workforce performance appraisals that are completed in a timely manner to 85%.

                   Accomplishment: During the year, the Library achieved a 55 percent timeliness rate for
                   completing performance appraisals. While this fell short of the 85 percent target, it was a 15
                   percent improvement over the timeliness baseline from the previous year.

                Performance Target: HCMP: Within six months of hire, 85% of new managers, supervisors, and
                senior leaders will have completed "Respectful Workplace" training.

                   Accomplishment: During the year, 85 percent of new managers, supervisors and senior leaders
                   completed Respectful Workplace training. This training provided information to them on the
                   spectrum of behaviors in the workplace and steps they can take to eliminate harassment in the
                   workplace.

                Performance Target: Multi-Year Affirmative Employment Program Plan (MYAEPP)
                Implementation: In fiscal 2011 there are eighteen data sets that will be collected and reported
                centrally through the HRS Data Management Systems. The Office of Opportunity, Inclusiveness and
                Compliance (OIC) will conduct an assessment of the data collected and reported by HRS.

                Performance Target: Beginning in quarter four of fiscal 2011, SUs provide data required based on
                established standards and definitions.

                   Accomplishment: For the two preceding targets, 14 of the planned 18 data sets were collected
                   during the year and reported centrally to investigate, report, track, and identify trends. (Human
                   Resources Services deferred collecting the four remaining data sets to fiscal 2012 due to system
                   limitations.) The Library uses the data to evaluate diversity, implement inclusion programs and
                   training opportunities, assess recruiting and hiring practices, update incentive compensation
                   programs, and conduct analysis using current market data. Overall these accomplishments will
                   help fulfill the Library’s commitment to leveraging diversity.

                Performance Target: Office of Contracts and Grants Management (OCGM): SU Acquisition Plans
                are developed and provided to OCGM on a 15 month planning process.

                   Accomplishment: In fiscal 2011, all service units developed and provided acquisition plans
                   supporting a 15-month planning cycle to the Office of Contracts Management (OCM). These



18
                                                               Management’s Discussion and Analysis


   long-range acquisition plans allow OCM to forecast, coordinate, and integrate a comprehensive
   Library-wide plan and overall strategy with staffing requirements for awarding the Library’s
   essential acquisitions.

Performance Target: OCGM: Building Capability: The success of OCGM is vitally dependent
upon the competency of all who play a substantive role in the acquisition process. Develop and
implement a formalized Contracting Officer’s Technical Representative (COTR) continual training
program.

   Accomplishment: In fiscal 2011, OCM developed and implemented a formalized, on-going
   COTR training program and provided training to 236 (85 percent) of all active Contracting
   Officer’s Technical Representatives (COTRs) and others involved in contract management.
   COTR training helps to ensure that contracts are managed properly by giving COTRs the skills
   necessary to execute their responsibilities for accomplishing technical and financial aspects of
   contract execution.

Performance Target: Integrated Support Services (ISS)/Facility Services (FACS) Projects Plan:
Maintain an average on-time achievement rate of 75% for key project milestones (Program, Design,
Procurement and Construction).

   Accomplishment: Achieved an overall timeliness rate of 94 percent, exceeding the 75 percent
   performance target. As a result, ISS/FACS improved the timeliness of its support to its customers.

Performance Target: Achieve a customer satisfaction level with FACS project milestones at ISS
best practice rate of 4.5 of 5.0.

   Accomplishment: During fiscal 2011, ISS/FACS/Facility Design and Construction (FD&C)
   recognized shortcomings in the existing surveys used to set the performance target of achieving a
   4.5 rating for customer satisfaction with facility projects. FD&C revised its surveys of client
   satisfaction with facility projects. At year end, the revised surveys had established a baseline
   value of 4.1 (out of a possible 5) for overall client satisfaction. Based on that feedback, during
   fiscal 2012 FD&C will institute new project communication protocols focused on customer
   awareness and the project process.

Performance Target: ISS Records Management: Every federal agency, including the Library has a
responsibility to create and maintain records regarding its existence and operations and to manage its
records in both hardcopy and electronic formats, according to the Federal Records Act, the Federal
Records Disposal Act and LCRs. SUs are responsible for identifying and assigning a Records
Coordinator to oversee records management activities for all the SU divisions and offices and
coordinate SU records management matters with the Office Systems Services (OSS)/Records
Management Section (RMS). The records coordinator will be responsible for record management
compliance for the SU.

 Performance Target: SUs are responsible for assigning Records Liaisons for each division and
office. Record Liaisons are responsible for managing their respective office records inventories,
maintaining file plans, records disposition, etc.

   Accomplishment: For the two preceding targets, ISS/RMS personnel worked with SUs to
   establish necessary contacts for Records Program rollout, and assured that Records Management
   Coordinators and Liaisons were assigned for all SUs prior to year end. This effort to strengthen
   the Library’s records management will lead to better preservation of the Library’s business
   documents and records.

Performance Target: All Record Coordinators and Liaisons will have completed Library identified
Records Management training.



                                                                                                         19
Management’s Discussion and Analysis



                   Accomplishment: ISS/RMS completed the training for six of the seven SUs (86 percent). The
                   records management General Records Schedule and training gives the Library a set of tools to
                   gain control over the records in existence and those being created on a daily basis.

                Performance Target: Office of Security and Emergency Preparedness (OSEP): Continuity of
                Operations Plan (COOP). Guide and assist Service Units in preparation and submission of COOPs
                including Federal Emergency Management Agency (FEMA) elements.

                   Accomplishment: OSEP staff assisted and guided all Library service units to prepare and submit
                   COOPs according to FEMA standards. As a result, the Library’s COOP will be more effective
                   through the use of common language, terminology, roles, and responsibilities that are written
                   clearly and concisely.

           Annual Objective: The Information Technology Steering Committee (ITSC) has established appropriate
           levels of governance for all Information Technology (IT) investments.

                Performance Target: By September 30, 2011, the ITSC has reviewed and evaluated all Library IT
                investments meeting the threshold criteria.

                   Accomplishment: By the end of fiscal 2011, all those IT investments meeting the established
                   threshold criteria for cost, complexity, risk, and visibility had undergone evaluation by the ITSC.

           Annual Objective: The Library has begun implementation of the new planning and budgeting framework
           and uses budget and planning systems for analysis and decision-making.

                Performance Target: The Office of the Chief Financial Officer (OCFO) has published the
                Formulate, Execute, and Implementation phases of the Planning and Budgeting Framework manual
                by September 2011.

                   Accomplishment: The three planned sections of the manual were drafted and reviewed by
                   stakeholders by the end of the fiscal year. These sections provide broad guidance about the
                   Planning and Budgeting Framework as well as step-by-step instructions for effectively using the
                   Library’s planning database as a tool for both planning and reporting on performance progress
                   toward accomplishing the Library’s Strategic Plan.

                Performance Target: By July 2011, the Library-wide budget formulation and execution system is
                available for use by Library fund managers.

                   Accomplishment: The Library’s Budget System was not available for use as of September 30,
                   2011. OCFO anticipated its availability for users in early November 2011. Once implemented,
                   this Budget System will allow end users to track planned v. actual obligations. The system will be
                   the repository of all budget formulation and execution data for the Library. It will also automate
                   the acquisition planning process, and synchronize acquisition plans with the Library’s budget
                   spending plans.

           Annual Objective: Senior level executive performance plans are aligned to the Library’s Strategic Plan
           and organizational annual plans.

                Performance Target: By the end of fiscal 2011, the Library will have aligned senior level
                performance plans to the Library’s Strategic Plan and organizational annual plans

                   Accomplishment: Eighty-six percent of Senior Level Performance Plans were validated for
                   alignment to the Library's strategic goals and organizational plans, and entered into EmpowHR
                   (the Library’s automated HR system) for tracking and reporting purposes. Aligning senior-level



20
                                                                    Management’s Discussion and Analysis


        staff performance plans to the Library’s Strategic Plan helps ensure senior managers focus their
        attention on the Library’s overall priorities, vision, and strategic direction.

Annual Objective: Management received responses required by LCR 2023-9.

     Performance Target: Management response required by LCR 2023-9, “Rights and Responsibilities
     of Library Employees to the Inspector General,” submitted in final format to the Chief, Office of
     Support Operations (OSO) for review minimum three business days before the Office of the Inspector
     General’s (OIG) due date.
     Performance Target: Corrective Action Plans and periodic updates required by LCR 2023-9
     submitted in final format to Chief, OSO for review minimum three business days before OIG due date.

        Accomplishment: For the preceding two targets, during the year all management responses,
        corrective actions plans and periodic updates were submitted timely. Timeliness permitted the
        Chief of OSO the opportunity to determine the direction of corrective action and that controls are
        in place to prevent fraud, waste, and mismanagement of government resources.

Annual Objective: SU efficiencies and best practices identified.

     Performance Target: Leverage efficiencies and best practices within the SU. OSO working groups
     convene to review administrative, technical, contracting, and operational procedures and develop
     OSO best practices and opportunity for efficiencies within the SUs.

        Accomplishment: As a result of ongoing quarterly meetings, the Office of Support Operations
        identified several best practices in procurement planning (purchasing as a service unit rather than
        individual offices), budget execution (better utilization of the Payroll Analysis Module (PAM) in
        payroll planning), and workforce planning that will be implemented throughout the SU.

Annual Objective: OCGM New Organization

     Performance Target: Currently the contracting office is staffed at 40% level. A hiring plan,
     spending plan and new organization has been approved.

        Accomplishment: Twenty-six of 30 planned positions were filled (22 by federal employees and
        four by contractors) for a total fill of 87 percent.

     Performance Target: The success of OCGM is vitally dependent upon the competency of all who
     play a substantive role in the acquisition process. Develop and implement a three year training
     program for OCGM staff.

        Accomplishment: The Office of Contracts Management successfully implemented the first year
        of a three-year training program for its staff. The curriculum addresses the training, education,
        and experience requirements for contract specialist certification. A well-trained acquisition
        workforce is critical to ensuring that the Library accomplishes its mission.

Annual Objective: Emergency Preparation

     Performance Target: COOP: consolidate SU and Office of the Librarian (LIBN/O) submissions
     into one Library COOP.

        Accomplishment: The OSEP received and reviewed all SU COOPs. Although the SUs used a
        single tested and proven template to build their COOPs, differences between individual SU
        requirements made coordination and consolidation into a Library-wide plan more difficult than
        anticipated. As a result, OSEP has scheduled the plan for completion in fiscal 2012. The common




                                                                                                              21
Management’s Discussion and Analysis


                       language, terminology, roles, and responsibilities used in the Library-wide plan will enhance the
                       Library’s ability to execute the plan in an emergency.

              Annual Objective: The Library has developed policies and governance processes to: (1) solicit ideas for
              improving business processes and information tools for clients, (2) review and prioritize the ideas, (3)
              implement the ideas where appropriate, and (4) acknowledge and celebrate benefits to the Library.

                   Performance Target: By September 30, 2011, the Innovation Group has defined scope and focus
                   for the first phase of establishing an innovation program.

                       Accomplishment: By the close of fiscal 2011, the Innovation Group had achieved the milestone
                       of identifying and describing the scope of its efforts and, in addition, had identified three areas of
                       focus for the initial ideation sessions. The Group had also identified four of seven SU
                       coordinators and was in the process of finding participants and developing a schedule for
                       obtaining staff input. These actions position the Innovation Group to begin the first phase of
                       establishing an innovation program for the Library.

              Annual Objective: Thirty percent of Library-wide staff development programs incorporate competencies
              in collaboration and innovation.

                   Performance Target: By the end of fiscal 2011, the Library will have included the competencies of
                   collaboration and innovation into 30% of Library-wide staff development programs

                       Accomplishment: Incorporated competencies in collaboration and innovation into 50 percent of
                       the four planned Library-wide staff development programs. The two affected programs, Career
                       and Leadership Development, added innovation and collaboration competencies to their effective
                       management and leadership subjects. These competencies will help employees develop and
                       integrate new skills into their career development efforts.


                   Internal Control Program, Systems, Controls and Legal Compliance

     The Library has an Internal Control Program (ICP) that requires annual risk (vulnerability) self assessments and
     periodic reviews of control techniques based on the results of the Vulnerability Assessments (VAs). The Library’s
     Internal Control Program policy, as provided in LCR 1510-1 states that:

              “Library of Congress will establish and maintain an Internal Control Program to ensure that adequate
              internal controls are in place to provide reasonable assurance that program activities are operating
              efficiently and effectively; reliable/timely information is obtained, maintained, recorded, reported, and used
              for decision making; assets are safeguarded, and that programs are managed with integrity and in
              compliance with applicable laws and regulations.”

     During fiscal year 2011, all modules (134) Library-wide performed Vulnerability Assessments (VAs) on the
     identified financial and non-financial programs. Based on the results of the level of risk provided by the VAs, the
     number of selected modules that performed Detailed Control Reviews (DCRs) was 41. DCRs examine if control
     techniques are in place and working as intended. These 41 DCRs yielded 32 new Corrective Action Plans (CAPs).
     These CAPs will be monitored and tracked by program officials and verification reviewers until the deficiencies are
     resolved. All CAPs were Letter Findings.

     The implementation and regular testing of controls allows for Library management to assert that these controls
     provide reasonable assurance that the foregoing objectives are met. This testing is performed on the central
     financial and reporting systems, along with the subsidiary and program systems and the external financial interfaces
     used by the Library. The Library has continued to enhance the central financial system that was implemented in
     2004 to improve controls, reduce paper-based transactions, and decrease the number of program and subsidiary
     systems.



22
                                                                              Management’s Discussion and Analysis




                                 Limitations of the Financial Statements
The Library's financial statements are the culmination of a systematic accounting process. The statements have been
prepared to report the financial position and results of operations of the Library of Congress, pursuant to the
hierarchy of accounting principles and standards set forth in Note 1 to the Financial Statements. While these
statements have been prepared from the books and records of the Library, they are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides resources to do so.




                                                                                                                         23
Consolidated Financial Statements

                                    THE LIBRARY OF CONGRESS
                                          Consolidated Balance Sheets
                                             As of September 30, 2011 and 2010

                                                                                              (in thousands)
                                                                                        FY 2011           FY 2010
        ASSETS
             Intragovernmental:
                 Fund Balance with Treasury (Note 2)                                $        334,678    $     350,417
                 Investments (Note 3)                                                         45,506           42,583
                 Accounts Receivable, Net (Note 4.A)                                          14,388           11,848
                 Other Intragovernmental Assets                                                   69            1,023
             Total Intragovernmental                                                         394,641          405,871

             Cash and Other Monetary Assets (Note 1.G)                                           223              169
             Pledges Receivable – Donations (Note 4.B)                                        10,162           19,208
             Investments (Note 3)                                                             80,583           84,979
             Inventory and Operating Materials (Note 1.K)                                        896            1,037
             Property and Equipment, Net (Note 5)                                             67,924           67,015
             Other Assets                                                                        257              544

            Library Collections (Note 1.M)
        TOTAL ASSETS                                                                $        554,686    $     578,823

        LIABILITIES
             Intragovernmental:
                 Accounts Payable and Accrued Funded Payroll, Benefits              $          5,070    $       6,109
                 Advances from Others                                                         32,971           33,091
                 Accrued Unfunded Workers’ Compensation (Note 8)                               1,922            1,756
                 Other Intragovernmental Liabilities (Note 10)                                   341              130
             Total Intragovernmental                                                          40,304           41,086

             Accounts Payable and Accrued Funded Payroll, Benefits                            79,138           74,908
             Deposit Account Liability                                                         6,473            6,920
             Accrued Unfunded Annual and Compensatory Leave                                   25,977           26,295
             Actuarial Unfunded Workers’ Compensation (Note 8)                                 7,896            7,461
             Other Liabilities (Note 10)                                                       4,309            5,291
             TOTAL LIABILITIES                                                      $        164,097    $     161,961

             Commitments and Contingencies (Note 9)

        NET POSITION
             Unexpended Appropriations – All Other Funds                            $        182,590    $     199,250
             Cumulative Results of Operations – Earmarked Funds (Note 17)                    171,288          185,214
             Cumulative Results of Operations – All Other Funds                               36,711           32,398
             TOTAL NET POSITION                                                     $        390,589    $     416,862

        TOTAL LIABILITIES AND NET POSITION                                          $        554,686    $     578,823


                           The accompanying notes are an integral part of these financial statements.


24
                                                                                    Consolidated Financial Statements

                         THE LIBRARY OF CONGRESS
                          Consolidated Statements of Net Costs
                             For the Years Ended September 30, 2011 and 2010

                                                                                        (in thousands)
                                                                                    FY 2011        FY 2010
NET COSTS BY PROGRAM AREA
   National Library:
      Program Costs                                                             $                 $
                                                                                       477,394        485,331
      Less: Earned Revenue                                                              (4,430)        (4,351)
      Net Program Costs                                                                472,964        480,980

   Law Library:
      Program Costs                                                                     25,145         25,477
      Less: Earned Revenue                                                                (15)           (15)
      Net Program Costs                                                                 25,130         25,462

   Copyright Office:
      Program Costs                                                                      76,163         81,326
      Less: Earned Revenue                                                             (32,694)       (38,481)
      Net Program Costs                                                                  43,469         42,845

   Congressional Research Service:
      Program Costs                                                                    141,333        148,424
      Less: Earned Revenue                                                                  (3)            (1)
      Net Program Costs                                                                141,330        148,423

   National Library Service for the Blind and Physically Handicapped:
      Program Costs                                                                     80,563         89,401
      Less: Earned Revenue                                                                  (3)            (2)
      Net Program Costs                                                                 80,560         89,399

   Revolving and Reimbursable Funds:
      Program Costs                                                                     107,149       110,135
      Less: Earned Revenue                                                             (92,601)       (94,255)
      Net Program Costs                                                                  14,548         15,880

NET COSTS OF OPERATIONS                                                         $     778,001     $   802,989




                 The accompanying notes are an integral part of these financial statements.

                                                                                                                  25
Consolidated Financial Statements


                                        THE LIBRARY OF CONGRESS
                             Consolidated Statements of Changes in Net Position
                                              For the Years Ended September 30, 2011 and 2010
                                                                                                            (in thousands)
                                                                    FY 2011                                   FY 2010
                                                     Earmarked     All Other     Consolidated Earmarked      All Other      Consolidated
                                                       Funds        Funds           Total       Funds         Funds            Total
     CUMULATIVE RESULTS OF OPERATIONS
     Beginning Balances                                $185,214      $32,398        $217,612     $173,519       $34,175        $207,694

     Budgetary Financing Sources:
        Appropriations Used                                          637,325         637,325                    642,917          642,917
        Non-exchange Revenue                                 433                         433          443                            443
        Donations of Cash or Securities                    4,235                       4,235       16,221                         16,221
        Transfers In/(Out) Without
                                                            206         (438)           (232)        382           (277)             105
            Reimbursement
        Other                                              2,954                        2,954       3,436                          3,436
     Other Financing Sources (Non-exchange):
        Donations of Property and Services                   429      24,760            25,189        398        42,118           42,516
        Transfers – in/out without Reimbursement           (126)         126                 0       (31)            31                0
        Imputed Financing                                  4,304      97,205          101,509       3,719        98,991          102,710
        Other                                            (3,025)                       (3,025)      4,559                          4,559
     Total Financing Sources                               9,410      758,978         768,388      29,127        783,780         812,907
     Net Cost of Operations                             (23,336)    (754,665)       (778,001)    (17,432)      (785,557)       (802,989)
     Net Change                                         (13,926)        4,313          (9,613)     11,695         (1,777)          9,918

     CUMULATIVE RESULTS OF OPERATIONS                  $171,288      $36,711        $207,999     $185,214       $32,398        $217,612

     UNEXPENDED APPROPRIATIONS
     Beginning Balances
                                                             $0     $199,250        $199,250          $0       $207,157        $207,157

     Budgetary Financing Sources:
        Appropriations Received                               0       629,936         629,936          0         643,337         643,337
        Appropriations Transferred In/(Out)                   0           (76)            (76)         0          (1,137)         (1,137)
        Other Adjustments                                     0        (9,195)         (9,195)         0          (7,190)         (7,190)
        Appropriations Used                                   0     (637,325)       (637,325)          0       (642,917)       (642,917)
     Total Budgetary Financing Sources                        0      (16,660)        (16,660)          0          (7,907)         (7,907)

     TOTAL UNEXPENDED APPROPRIATIONS                          0      182,590         182,590           0        199,250          199,250

     NET POSITION                                      $171,288     $219,301        $390,589     $185,214      $231,648        $416,862




                               The accompanying notes are an integral part of these financial statements.

26
                                                                                          Consolidated Financial Statements

                                  THE LIBRARY OF CONGRESS
                            Combined Statements of Budgetary Resources
                                     For the Years Ended September 30, 2011 and 2010

                                                                                                 (in thousands)
                                                                                       FY 2011                 FY 2010
BUDGETARY RESOURCES
   Unobligated Balance, Brought Forward, October 1                                $            90,070    $         1,291,000
   Recoveries of Prior-year Unpaid Obligations                                                 21,667                 34,432
   Budget Authority:
       Appropriation                                                                          653,775               667,338
       Spending Authority from Offsetting Collections:
           Earned:
                Collected                                                                     142,208               150,993
                Change in Receivables from Federal Sources                                        722                   795
           Change in Unfilled Customer Orders:
                Advances Received                                                                (116)                (3,808)
                Without Advances from Federal Sources                                            1,243                  (767)
   Total Budget Authority                                                                     797,832                814,551
   Nonexpenditure Transfers, Net                                                                  (76)                (1,137)
   Temporarily Not Available Pursuant to Public Law                                                  0                      0
   Permanently Not Available                                                                   (9,427)                (7,190)
TOTAL BUDGETARY RESOURCES                                                         $           900,066    $         2,131,656

STATUS OF BUDGETARY RESOURCES
    Obligations Incurred:
        Direct                                                                    $           650,647    $         1,876,804
        Reimbursable                                                                          149,712                164,782
    Total Obligations Incurred                                                                800,359              2,041,586
    Unobligated Balance – Exempt from Apportionment                                            82,598                 71,216
    Unobligated Balance – Not Available                                                        17,109                 18,854
TOTAL STATUS OF BUDGETARY RESOURCES                                               $           900,066    $         2,131,656

CHANGE IN OBLIGATED BALANCE
   Unpaid Obligated Balance, Net, Brought Forward, October 1:
       Unpaid Obligations, Brought Forward                                        $           298,477    $           278,013
       Less: Uncollected Customer Payments, Brought Forward                                  (12,521)               (12,492)
   Total Unpaid Obligation Balance, Net                                                       285,956                265,521
   Obligations Incurred, net                                                                  800,359              2,041,586
   Less: Gross Outlays                                                                      (798,985)            (1,986,690)
   Less: Recoveries of Prior-Year Unpaid Obligations                                          (21,667)              (34,432)
   Change in Uncollected Customer Payments from Federal Sources                                (1,965)                  (29)
   Unpaid Obligated Balance, Net, End of Period:
       Unpaid Obligations                                                                    278,184                298,477
       Less: Uncollected Customer Payments from Federal Sources                              (14,486)               (12,521)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                $          263,698     $          285,956

NET OUTLAYS
    Gross Outlays                                                                 $           798,985    $         1,986,690
    Less: Offsetting Collections                                                            (142,092)              (147,185)
    Less: Distributed Offsetting Receipts                                                       (216)                 (1,471)
NET OUTLAYS                                                                  $                656,677
                                                                                                  $                1,838,034
       (The Library has no Non-Budgetary Credit Program Financing Accounts; all amounts above are Budgetary.)

                         The accompanying notes are an integral part of these financial statements.



                                                                                                                                27
Notes to the Consolidated Financial Statements


         NOTE 1              SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

     A. Reporting Entity

     The Library of Congress (the Library), a legislative branch agency of the U.S. government, was established in 1800
     primarily to provide information and policy analyses to the members and committees of the U.S. Congress. Since
     then, the Library has been assigned other major missions such as serving as the national library, administering the
     U.S. copyright laws, providing cataloging records to the nation's libraries, and coordinating a national program to
     provide reading material for blind and physically handicapped residents of the U.S. and its territories and U.S.
     citizens residing abroad. The Library also provides services to other federal agencies and administers various gift
     funds and funds accepted and controlled by the Library of Congress Trust Fund Board (TFB).

     The Library's programs and operations are subject to oversight by the Joint Committee on the Library, the oldest
     joint committee of the Congress, which is comprised of members of the U.S. House of Representatives and Senate.
     The Library relies primarily on appropriated funds to support its programs and operations. Budget requests are
     subject to review by the House and Senate Appropriations Subcommittees on Legislative Branch Appropriations.
     The Library also receives funds from other agencies for services provided under the Economy Act and other
     statutes. In addition, the Library administers several fee-for-service revolving funds and receives donations from the
     public, which are classified as gifts or funds accepted and controlled by the TFB, which consists of the Librarian of
     Congress (who is Chairman and Secretary of the TFB), the Chairman and Vice-Chairman of the Joint Committee on
     the Library, the Secretary of the Treasury (or an assistant secretary designated in writing by the Secretary of the
     Treasury), and ten members appointed by the President (two), the U.S. House of Representatives (four), and the U.S.
     Senate (four).

     Entity activities are those for which the Library has the authority to use the assets. Non-entity activities consist
     primarily of deposit accounts that are not available for use by the Library.


     B. Basis of Presentation
     The accompanying financial statements report the financial position, net costs, changes in net position, and
     budgetary resources of the Library for fiscal years 2011 and 2010. These consolidated and combined financial
     statements include the accounts of all funds under the Library's control, which have been established and maintained
     to account for the resources of the Library. They were prepared from the Library's financial management system in
     accordance with Generally Accepted Accounting Principles (GAAP).

     Fiduciary assets are not assets of the Library of Congress and are not recognized on the Balance Sheet, Statement of
     Net Cost, or Statement of Net Position.

     Material intra-Library transactions and balances have been eliminated from the Consolidated Balance Sheets, the
     Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statement
     of Budgetary Resources is presented on a combined basis; therefore, intra-Library transactions and balances have
     not been eliminated from this statement.

     As a legislative branch agency, the Library is not required to follow the executive agency accounting principles
     established by the Comptroller General under 31 U.S.C. 3511 or the standards developed by the Federal Accounting
     Standards Advisory Board (FASAB). As a legislative branch entity, the Library is not currently required to prepare
     general purpose financial reports and is not subject to any requirements by the FASAB’s sponsors to follow FASAB
     GAAP. However, for purposes of financial management and reporting, the Library has issued a regulation (LCR
     1510), which adopts FASAB standards for financial reporting and internal controls in a manner consistent with a
     legislative agency, and insofar as practical, conforms to GAAP for federal agencies. The Library maintains its fund
     balances with the Department of the Treasury and submits information required to incorporate its financial and
     budgetary data into the overall federal government structure. The Library has not adopted the Federal Financial
     Management Improvement Act of 1996, the Federal Managers Financial Integrity Act, the Government Performance




28
                                                                      Notes to the Consolidated Financial Statements


and Results Act, and the GPRA Modernization Act, as these standards are not applicable to the Library. However,
the Library uses these sources as guidance and reference in its operations.

The statements include 4 (4) appropriated fund accounts; 26 (26) revolving (and gift revolving) funds; 24 (26)
reimbursable funds; 105 (105) TFB funds; and 138 (136) gift funds for fiscal year 2011 (and 2010, respectively).

C. Basis of Accounting

In accordance with LCR 1510, the Library’s financial statements conform to accounting principles generally
accepted in the United States of America as promulgated by FASAB. Although the FASAB sponsors do not
prescribe accounting standards for the legislative branch, the American Institute of Certified Public Accountants has
designated FASAB Standards as GAAP for federal reporting entities and these are appropriate accounting standards
for legislative agencies to adopt when preparing GAAP-based general purpose financial statements.

The statements were also prepared based on guidance published in the Office of Management and Budget (OMB)
Circular No. A-136, Financial Reporting Requirements. The Library is not required to adopt this circular, and
accordingly has elected to use the disclosures management deems necessary for the fair presentation of financial
statement information.

The accounting structure of the Library is designed to reflect both accrual and budgetary accounting. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. The budgetary accounting, on the other hand, is designed to recognize
the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-
based transaction. The budgetary accounting facilitates compliance with legal constraints on and controls over the
use of federal funds.

The preparation of financial statements in conformity with GAAP requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
liabilities at the date of the financial statements and the reported amounts of revenues and expenses during the
reporting period. Actual results could differ from these estimates.

D. Revenues and Other Financing Sources

Appropriations

The Library receives the majority of its funding to support its programs through four appropriations that include
both annual and no-year funding. The appropriated funds may be used, within statutory limits, for operating and
capital expenditures including equipment, furniture and furnishings. Appropriations are recognized as revenues at
the time they are expended. The four appropriations for fiscal year 2011 are:

        Library of Congress, Salaries and Expenses (annual and no-year)
        Copyright Office, Salaries and Expenses (annual and no-year)
        Congressional Research Service, Salaries and Expenses (annual)
        National Library Service for the Blind and Physically Handicapped, Salaries and Expenses (annual and no-
         year)

Earned Revenues

Additional amounts are obtained through reimbursements from services performed for other federal agencies as
authorized by the Economy Act and the Library's annual appropriations legislation. In addition, the Library operates
several self-sustaining revolving funds that generate revenues from the sale of various products and services to the
public and federal customers. Revolving and reimbursable fund revenue is recognized when goods have been
delivered or services rendered.

Under the authority of 2 U.S.C. 182, the Cooperative Acquisitions Revolving Fund was established on October 1,
1997, and is the program under which the Library acquires foreign publications and research materials on behalf of


                                                                                                                         29
Notes to the Consolidated Financial Statements


     participating institutions on a cost-recovery basis (over time). 2 U.S.C. 182 was amended for the establishment of
     revolving funds for Audio-Visual Duplication Services, Gift Shop Operations, Decimal Classification, Document
     Reproduction and Microfilm Services, Special Events, FEDLINK and Federal Research Program.

         	  The Audio-Visual Duplication Services fund provides audio and video duplication and delivery services
             which are associated with the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
          The Decimal Classification fund performs decimal classification development.
          The Gift Shop fund operates a gift shop and other sales of items associated with collections, exhibits,
             performances, and special events at the Library.
          The Document Reproduction and Microfilm Services fund provides document reproduction and
             microfilming services.
          The Special Events fund performs services related to the hosting of special events and programs by the
             Librarian in Library facilities.
         	 The FEDLINK program is the program of the Library under which procurement of publications and library
             support services, along with related accounting, education and support services are provided to Federal
             Government or District of Columbia entities.
          The Federal Research Program provides research reports, translations and analytical studies for Federal
             Government or District of Columbia entities.
     The revolving funds report, but are not required to recover, unreimbursed inter-entity costs (imputed costs).

     Imputed Financing Sources

     In accordance with FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 30, “Inter-Entity
     Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts,” the Library has
     recorded expenses for the material unreimbursed full costs of goods and services that it receives from other
     legislative branch agencies (i.e., the Architect of the Capitol and the Government Printing Office) and executive
     branch agencies (i.e., the Office of Personnel Management (OPM) and the Department of the Treasury). Since these
     costs are not actually paid to the other agencies, an imputed financing source is recorded to offset these costs that are
     financed by the other Federal agencies.

     Donation and Interest Revenue

     The Library receives monetary gifts from donors and receives interest on invested funds. The Library also receives
     gifts of donated property or services. The Library records these in-kind donations as donated revenue in the year
     earned and an offsetting expense in the same year.

     During fiscal years 2011 and 2010, the Ad Council provided nearly all of the in-kind donations in the form of free
     advertising for America’s Library web site. Several vendors provided in-kind donations for the Library’s annual
     book festivals and several other meetings. Finally, at times, the Ira and Leonore Gershwin Trust Fund and Related
     Charitable Trust has provided in-kind materials and services to the Library.

     Deferred Credits

     The Library received gifts subject to certain conditions being met. These are not considered earned until the
     conditions are met, and are recorded as deferred credits until earned.

     E. Gift and TFB Funds

     The Library administered gift and TFB funds with combined asset value of approximately $148.1 million and
     $156.8 million during fiscal years 2011 and 2010, respectively. Funds are restricted as to their use, which must be
     in accordance with the terms of the gift agreement. In general, TFB funds are either temporarily restricted (principal
     may be spent) or permanently restricted (principal may not be spent). Additional restrictions may be imposed on
     TFB funds by the terms of an agreement or donor's will. Library fund managers administer and oversee the gift and
     TFB funds to ensure they are used as directed by the donors and in accordance with Library policy.




30
                                                                     Notes to the Consolidated Financial Statements


F. Fund Balance with Treasury

The amount shown as Fund Balance with Treasury represents the balances of the appropriated, reimbursable, gift
and TFB funds, revolving, and deposit funds that are on deposit with the U.S. Treasury.

G. Cash and Other Monetary Assets

Cash and other monetary assets are defined as all cash not held by the U.S. Treasury. This category includes
deposits in transit, cash on hand and imprest funds.

The Library receives and utilizes foreign currencies in carrying out operations abroad as it conducts business
through six overseas offices. Foreign currency balances at year-end are immaterial to the financial statements.

H. Investments (Net)

Gift and TFB Funds - The TFB determines the investment policy for the Library's gift and TFB funds. The policy
provides three options for investment of TFB funds:

    	   A permanent loan with the U.S. Treasury

    	   A pool of U.S. Treasury market-based securities

    	   A private investment pool consisting of the following stock, index and money market funds utilized during
         fiscal year 2011:

         	   Frontier Capital Management Co.
         	   Legg Mason Global Opportunities Bond Fund
         	   Diamond Hill Large Cap Value
         	   Dodge & Cox Income Fund
         	   Dodge & Cox Stock Fund
         	   Managers Cadence Capital Appreciation Fund
         	   Harbor Capital Appreciation Fund
         	   Artio International Equity Fund
         	   Lazard Emerging Markets Fund
         	   Neuberger Berman Large Cap Disciplined Growth Fund
         	   PIMCO Total Return Fund
         	   Vaughn Nelson Small/Mid Cap Value

         and utilized during fiscal year 2010:

         	   Vanguard Institutional Index Fund
         	   Diamond Hill Large Cap Value
         	   Dodge & Cox Income Fund
         	   Dodge & Cox Stock Fund
         	   Managers Cadence Capital Appreciation Fund
         	   Harbor Capital Appreciation Fund
         	   Artio International Equity Fund
         	   Lazard Emerging Markets Fund
         	   Neuberger Berman Large Cap Disciplined Growth Fund
         	   PIMCO Total Return Fund
         	   Vaughn Nelson Small/Mid Cap Value

The policy for gift funds allows only for investment in U.S. Treasury market-based securities.




                                                                                                                     31
Notes to the Consolidated Financial Statements


     Under 2 U.S.C. 158, up to $10 million of the Library's gift and TFB funds may be invested with the U.S. Treasury as
     a permanent loan at a floating rate of interest, adjusted monthly, but no less than four percent per annum. The
     permanent loan is an interest bearing investment recorded at cost, which is market value.

     Treasury securities are intended to be held to maturity, are valued at cost, and are adjusted for the amortization of
     discounts and premiums. Interest is computed using the straight-line method, which approximates the effective
     interest method.

     Stock and money market funds are stated at current market value and are considered available for sale. Unrealized
     gains and losses are recognized and recorded as a component of non-exchange revenue in the statement of changes
     in net position.

     All gift and TFB fund investments are obtained and held by the gift and TFB funds under conditions set forth in the
     respective gift and TFB instruments.

     Deposit Funds - Pursuant to Public Law 105-80, funds deposited by copyright applicants are invested, based on the
     unearned balance available, by the Copyright Office in U.S. Treasury securities. Treasury securities are intended to
     be held to maturity, are valued at cost and are adjusted for the amortization of discounts and premiums. Interest is
     computed using the straight-line method, which approximates the effective interest method. These investments will
     be held until the deposit fees are earned and income accrues to the benefit of the Copyright Office.

     I. Accounts Receivable

     Accounts receivable primarily resulted from billings to other federal agencies under reimbursable interagency
     agreements for database retrieval and other library services. The Library has established an allowance for doubtful
     accounts against accounts receivable due from non-federal customers, based on past collection experience. The
     Library does not record allowance for doubtful accounts for intragovernmental accounts receivable in accordance
     with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which cites that “losses on receivables should
     be recognized when it is more likely than not that the receivable will not be totally collected.” Intragovernmental
     receivables are likely to be totally collected.

     J. Pledges Receivable
     Contributions of unconditional promises to give (pledges) to the Library and the Library of Congress TFB are
     recognized as donated revenue in the period the pledge is received. They are recorded at their estimated present
     value using a market-based discount rate. Accretion of the discount in subsequent years is also recorded as donated
     revenue. Substantially all of the Library's pledges are from major corporations or donors. The Library regularly
     monitors the status of all pledges and adjusts accordingly; therefore no allowance for uncollectible pledges has been
     established.

     K. Inventory and Related Property

     The Library's inventories are primarily comprised of bibliographic products that will be consumed in future
     operations; materials used to reproduce printed materials; sound recordings for both internal and external sales; and
     sales shop merchandise for resale. Sales shop merchandise is valued at cost or market, whichever is lower. The
     recorded values of inventory and operating materials are adjusted for the results of periodic physical counts.

     L. Property and Equipment

     The Library capitalizes furniture and equipment at cost if the initial acquisition cost is $25,000 or more.
     Depreciation is computed on a straight-line basis using estimated useful lives.

     Property and equipment accounts are maintained in three categories of funds: Appropriated, Reimbursable and
     Revolving. The appropriated fund category includes all property and equipment used by the Library for general
     operations. Property and equipment purchased by the Integrated Support Services Administrative Working Fund are
     recorded in the reimbursable funds. Property and equipment purchased by FEDLINK, the Federal Research



32
                                                                          Notes to the Consolidated Financial Statements


Program, Document Reproduction and Microfilm Service, Audio-Visual Duplication Services, and the Cooperative
Acquisitions Program are recorded in the revolving funds.
The Library occasionally acquires property and equipment by direct gift or by purchase from funds donated for a
specific purpose or project. Because property is generally not restricted for use to gift and trust activities, property
accounts are not maintained in the gift and TFB funds. Capitalized property and equipment acquired through gifts
are recognized as donated revenue in the gift and TFB funds and transferred to the Library's appropriated fund, once
the costs are complete and the property is placed in service. The Library records the donated property and
equipment at its fair market value at the time of the gift.

Operating equipment is amortized over a 3 to 20-year period. Software includes ADP software purchased from
outside vendors and software defined as “internal use software” in accordance with SFFAS No. 10, “Accounting for
Internal Use Software.” Software is recorded with an estimated useful life of three years or more and a value of at
least $100,000 per item acquired in fiscal years 1998 to 2010, or at least $250,000 per item acquired in fiscal years
2011 and after.

Leased equipment meeting the criteria for capitalization in accordance with Statements of Federal Financial
Accounting Standards is included in property and equipment.

Land and buildings are excluded from the Library's property and equipment accounts because they are under the
custody and control of the Architect of the Capitol. This arrangement encompasses four Capitol Hill buildings (the
Thomas Jefferson, James Madison, John Adams Buildings, and the Special Facilities Center), a secondary storage
facility at Fort Meade, Maryland, and the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
The Architect receives an appropriation from Congress to fund maintenance, care and operations of the Library’s
buildings and grounds. Costs associated with the acquisition and maintenance of these buildings is accounted for by
the Architect. However, the Library has recorded the inter-entity cost and related imputed financing source in its
books. The Library does capitalize and depreciate leasehold improvements to its facilities as long as the
improvements were made using the Library’s funding sources and the acquisition cost is at least $100,000.

M. Library Collections
The Library classifies its collections as Heritage Assets, that is, assets with historical, cultural, educational, artistic
or natural significance. The Library’s mission is to make its resources available and useful to the Congress and the
American people and to sustain and preserve a universal collection of knowledge and creativity for future
generations.

The Library’s collection development policies are designed to fulfill its responsibilities to serve (1) the Congress and
United States government as a whole, (2) the scholarly and library communities, and (3) the general public. Written
collection policy statements ensure that the Library makes every effort to possess all books and library materials
necessary to the Congress and various offices of the United States government to perform their duties; a
comprehensive record, in all formats, documenting the life and achievement of the American people; and a universal
collection of human knowledge embodying, primarily in print form, the records of other societies, past and present.

Copyright deposits are a major source of the Library’s collections of Americana. The Library also acquires materials
by purchase, transfer from other federal agencies, gift, domestic and international exchange, or by provisions of state
and federal law. Many of these materials are foreign publications. Various preservation methods are used to
maintain the collections, and disposals occur only for the exchange and gift of unwanted or duplicate copies. As of
September 30, 2011 and 2010 the Library had 92 collections managed by its custodial units.

The cost of acquiring additions to the collections is expensed, when incurred, in the statement of net cost. (See note
12.) Supplemental information regarding the condition and preservation of the collections is included with the
Assessment of Condition of Heritage Assets.

N. Liabilities

Liabilities represent the amounts that are likely to be paid by the Library as a result of transactions that have already
occurred. Liabilities for which an appropriation has not been enacted, or which are the results of deposit account



                                                                                                                              33
Notes to the Consolidated Financial Statements


     activities, are classified as liabilities not covered by budgetary resources. For accrued unfunded annual leave,
     compensatory time earned, workers' compensation and capital lease liabilities, it is not certain that appropriations
     will be enacted to fund these amounts.

         Advances from Others are funds received for the revolving programs that have not yet been earned.

         Deposit Liabilities are customer funds on deposit for Copyright, Document Reproduction and Microfilm
         Services, and Cataloging Distribution Service products and services.

         Accrued Annual and Compensatory Leave - The Library's basic leave policy is contained in Title 5, U.S.C. the
         Uniform Annual and Sick Leave Regulations of the Office of Personnel Management, and the decisions of the
         Comptroller General. Generally, each employee may carry forward a maximum of 240 hours of annual leave
         per calendar year. Annual leave is accrued as it is earned and the liability is adjusted at the end of each fiscal
         year based on annual leave earned and taken. Annual leave earned in excess of the maximum permitted
         carryover is forfeited. Each year, the balance in the accrued annual leave account is also adjusted to reflect
         current pay rates.

         Employees' compensatory time earned but not taken is also accrued at year-end. An employee may accumulate
         a maximum of 40 hours of compensatory time during the fiscal year. Compensatory leave earned will remain
         on the employee’s leave record for use up to a maximum of 26 pay periods from the pay period in which it was
         earned. Any compensatory leave not used beyond the 26 pay periods will be forfeited.

         Sick leave and other types of non-vested leave are expensed as taken.


     O. Federal Employee Retirement Benefits
     The Library contribution costs (both funded and unfunded) to the various employee retirement programs are
     described below. The accrued funded contributions due at the end of the fiscal year are reported as liabilities covered
     by budgetary resources.

     Approximately 22 percent and 24 percent of the Library's employees participated in the Civil Service Retirement
     System (CSRS) during fiscal years 2011 and 2010, respectively, to which the Library makes contributions equal to
     7.0 percent of pay. Of those participating in CSRS, approximately 2 percent and 3 percent during fiscal years 2011
     and 2010 are also covered by Social Security (FICA), for which the Library’s contribution is slightly less.

     Approximately 75 percent and 73 percent of the Library’s employees were covered by the Federal Employees
     Retirement System (FERS) during fiscal years 2011 and 2010, respectively, to which the Library's normal
     contribution was 11.7 and 11.2 percent of pay during fiscal years 2011 and 2010. Additionally, for employees under
     FERS, the Library contributes an automatic 1% of employee's pay, plus matches employee Thrift Savings Plan
     (TSP) contributions up to four percent of pay (matched dollar-for-dollar on the first 3 percent of pay and 50 cents on
     the dollar for the next 2 percent of pay). Under FERS, the employee is also covered by FICA to which the Library
     contributes the employer's matching share.

     Approximately 3 percent of the Library's employees were covered only by FICA during fiscal years 2011 and 2010,
     to which the Library contributes the employer’s matching share.

     The actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension liability of
     Social Security, FERS and CSRS is not allocated to individual Federal departments and agencies. In accordance
     with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” current year expenses were recorded for
     the service cost of the Library’s employee retirement benefits during fiscal years 2011 and 2010. The
     implementation of SFFAS 33, “Pensions, Other Retirement Benefits and Other Postemployment Benefits:
     Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and Valuation Dates”,
     in fiscal year 2010 resulted in significant changes to the actuarial assumptions primarily affecting retirement benefit
     service costs. For fiscal years 2011 and 2010, the service cost factor was 30.1 and 13.8 percent for CSRS and
     FERS, respectively. The service cost factor is applied to the annualized employee pay, less the Library's funded


34
                                                                         Notes to the Consolidated Financial Statements


contributions, to derive the imputed retirement pension cost being financed directly by OPM. This unfunded cost
was offset by an imputed financing source.


P. Federal Government Transactions
The financial activities of the Library interact with and depend on other federal government agencies. Thus, the
Library's financial statements do not reflect all financial decisions and activities applicable to it as if it were a stand-
alone entity. The financial statements do not contain the cost of activities performed for the benefit of the entire
government, nor do they include the agency's share of the federal deficit or of public borrowings, including interest
thereon. However, expenses have been recognized for expenses incurred by certain other agencies on behalf of the
Library, including settlement of claims and litigation paid by the Treasury’s Judgment Fund and the partial funding
of employee benefits by OPM.

The Library's program for the blind and physically handicapped participates in the U.S. Postal Service's (USPS)
"Matter for Blind and Other Handicapped Persons" program (39 U.S.C. 3403 - 3406). This Postal Service program
receives an appropriation from Congress to provide free postage for qualifying organizations, programs, and
individuals such as mail from war zones, letters from blind people to anyone, and organizations that work for the
blind. The Library's National Library Service for the Blind and Physically Handicapped uses this free matter
program for mailing all books and equipment to its participating lending libraries and patrons. No cost for this has
been determined, nor included in the Library’s financial statements as the Library views the relationship with the
USPS and state and local libraries as a partnership and not inter-entity costs.

Services Provided to other Federal Agencies:

    	   The Library is authorized to provide to other federal libraries and agencies services such as automated
         library information and other data base retrieval services through data base vendors and in-house research
         studies. These services are provided on a cost reimbursement basis and are billed in advance of providing
         the services. At year-end the Library estimates the amount received in advance (Advances From Others -
         Intragovernmental) and the amount to be received for services provided (Accounts Receivable -
         Intragovernmental).

    	   The Library is authorized to provide to other legislative branch agencies accounting services and/or
         financial system hosting services. These services are provided on a cost reimbursement basis in accordance
         with the Economy Act.

Services Provided by other Federal Agencies:

Three governmental agencies provide administrative services to the Library on a reimbursable basis.

    	   The Department of Agriculture's National Finance Center (NFC) processes the Library's personnel, payroll,
         and employee benefits accounting transactions.

    	   The Library utilizes the services of the Department of State as documented by the International Cooperative
         Administrative Support Services (ICASS) system to support the Library's six overseas field offices.

    	   General Services Administration (GSA) provides building and vehicle leasing services for the Library.


Q. Related Party Organizations

The Library lends support to several related organizations, projects, and programs from which it receives benefits in
various forms. The following is a list of these organizations or programs:

    1.   Telephone Pioneers of America - The Telephone Pioneers is a large industry-related organization that
         voluntarily repairs sound reproduction machines for the blind and physically handicapped program.


                                                                                                                               35
Notes to the Consolidated Financial Statements


             Approximately 1,500 Telephone Pioneers (AT&T retirees) and Elfuns (General Electric retirees) donate
             their time to repair the machines.

       2.	   Library of Congress Child Care Association (LCCCA) - The LCCCA is a nonprofit corporation under
             the District of Columbia's Nonprofit Corporation Act. It was granted 501(c)(3) status by the Internal
             Revenue Service on August 31, 1992, and currently operates as the "Little Scholars Child Development
             Center." The center is located on the ground floor of the Library's Special Facilities Center, 601 East
             Capitol Street, District of Columbia. The center provides childcare for Library employees and other federal
             and non-federal employees. Its operations, management, and employees are the responsibility of the
             LCCCA and not the Library. However, the Library and the Architect of the Capitol support the center with
             equipment, free space, cleaning and maintenance of grounds and building, utilities, local telephone service,
             and security. The value of the services provided by the Library cannot be readily determined. In addition,
             the Library, in accordance with Public Law 106-554, pays the government contributions for individuals
             receiving health, life and retirement benefits provided by the Office of Personnel Management. The
             Library provides an official who is a non-voting representative on the center's Board of Directors and who
             acts as a liaison with the Library.

       3.	   The Archer M. Huntington Charitable Trust - This charitable trust was established in 1936 and is
             controlled and invested by the Bank of New York. The assets of the endowment are not a part of the TFB
             and the board's only control over its investment activities is through the Librarian of Congress' role as
             trustee. The trust is defined as a split-interest agreement with a fair value of assets of $3.9M and $4.4M at
             September 30, 2011 and 2010, respectively. The Library is entitled to one-half of the income from the trust
             for perpetuity, which is used to support a rotating consultantship to bring "distinguished men of letters . . ."
             to the Library. Currently, the income assists in the funding of a "poet laureate" position, the acquisition of
             materials for the Library’s Hispanic collections, and the promotion of activities of the Hispanic Division,
             particularly those that relate to Spain, Portugal and Latin America.

       4.	   Ira and Leonore Gershwin Trust Fund and Related Charitable Trust - Under the will of Mrs. Leonore
             Gershwin, the TFB is the beneficiary of 37.5 percent of Mrs. Gershwin's "1987 Trust." The will
             established the "Library Charitable Trust" which was accepted by the TFB in January 1992. The primary
             purpose of the trust is to perpetuate the name and works of George and Ira Gershwin through all resources
             of the Library. The charitable trust does not belong to the Library but is a separate entity administered by
             trustees. The net income of the charitable trust is distributed to the Library's Ira and Leonore Gershwin
             Trust Fund yearly or upon request by the Library. The balance of the Principal of the charitable trust will
             be distributed to the Library in 2033, fifty years after the date of death of Ira Gershwin.




36
                                                                     Notes to the Consolidated Financial Statements



    NOTE 2                    FUND BALANCE WITH TREASURY

A. Fund balance with Treasury at September 30, 2011 and 2010, is summarized as follows:

                                                                                      (in thousands)
                                                                                FY 2011            FY 2010
        Appropriated Funds                                               $           233,381 $          248,364
        Revolving and Reimbursable Funds                                              83,326             84,821
        Gift and TFB Funds 1                                                          16,549             15,675
        Deposit and Other Funds                                                        1,422              1,557
        TOTAL                                                            $           334,678 $          350,417

    1
      At September 30, 2011 and 2010, the gift and TFB fund balance with Treasury included $10 million
    invested in the permanent loan, which is included in fund balance with Treasury, at interest rates of 4.00
    and 4.02 percent, respectively.

B. Status of Fund Balance with Treasury
                                                                                      (in thousands)
                                                                                FY 2011            FY 2010
        Unobligated Balances – Available                                  $           42,425 $           33,806
        Unobligated Balances – Unavailable                                            27,102             28,846
        Obligated Balances Not Yet Disbursed                                         263,729            286,208
        Non-budgetary                                                                  1,422              1,557
        TOTAL                                                             $          334,678 $          350,417




    NOTE 3                    INVESTMENTS, NET

Investments at September 30, 2011 and 2010 are as follows:


                                                                              (in thousands)
                                                  Intragovernmental
                                                     Investments    Other Investments
                        FY 2011                    (Non-Marketable,  (Private Sector)
                                                                                                     Total
                                                    Market-Based)
        Face Value                                $            45,507 $                          $           45,507
        Cost                                                                            83,389               83,389
        Unamortized Premium                                        (0)                                          (0)
        Unrealized Discount                                        (1)                                          (1)
        Interest Receivable                                         0                                            0
        Investments, Net                          $            45,506 $                 83,389 $         128,895
        Market Value                              $            41,060 $                 80,583 $         121,643




                                                                                                                      37 

Notes to the Consolidated Financial Statements



                                                                                  (in thousands)
                                                            Intragovernmental
                                                                Investments    Other Investments
                                   FY 2010                   (Non-Marketable,    (Private Sector)
                                                                                                         Total
                                                               Market-Based)
          Face Value                                         $          42,594 $                  $              42,594
          Cost                                                                              84,761               84,761
          Unamortized Premium                                             (0)                                       (0)
          Unrealized Discount                                            (11)                                      (11)
          Interest Receivable                                               0                                        0
          Investments, Net                                  $          42,583 $             84,761 $         127,344
          Market Value                                      $          42,583 $             84,979 $         127,562



     A. Intragovernmental Investments

     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms. TFB fund
     investment maturity dates for fiscal years 2011 and 2010 range from October 6, 2011 to March 1, 2012 and October
     7, 2010 to March 11, 2011, respectively, and interest rates for the same fiscal years range from .005 percent to .045
     percent and .12 percent to .19 percent, respectively.

     B. Other Investments

     Other investments are the Library's non-Treasury investments in the private sector (See Note 1.H). Cost was
     derived from the investments made plus reinvested gains, dividends, and interest.

     Balances at September 30, 2011 and 2010 are as follows:

                                                      Non-Treasury Investments
                                                   Fiscal Year 2011 Fiscal Year 2010


                             $85
                                                       $85.0
                                                                                           $84.8
                                                                            $83.4
             (in millions)




                                        $80.6
                             $80




                             $75
                                             Market Value                           Cost




38
                                                                     Notes to the Consolidated Financial Statements



    NOTE 4              RECEIVABLES

The breakdown of consolidated gross and net accounts receivable at September 30, 2011 and 2010 are as follows:

A. Accounts Receivable

                                                                                      (in thousands)
                                                                                FY 2011            FY 2010
     Intragovernmental Accounts Receivable, Gross and Net                  $         14,388 $           11,848


     With the Public:
         Accounts Receivable, Gross                                                     330               349
         Less: Allowance for Doubtful Accounts                                          (73)              (14)
         Accounts Receivable, Net                                          $            257     $         335


B. Pledges Receivable

At September 30, 2011 and 2010, the Library had unconditional pledges of contributions totaling $26.0 million and
$19.9 million, which were discounted through fiscal years 2033 at market discount rates and included in the
statement of financial position at their discounted value of $10.2 million and $19.2 million, respectively.

The amounts due in future years, at September 30, at their current discounted value are:

                                                                                     (in thousands)
                                                                               FY 2011            FY 2010
     2011                                                              $                   - $          10,584
     2012                                                                             4,821              5,154
     2013                                                                             1,300                981
     2014                                                                             1,248                963
     2015                                                                               224                  0
     2016 and thereafter                                                              2,569              1,526
     TOTAL                                                             $             10,162 $          19,208




                                                                                                                    39 

Notes to the Consolidated Financial Statements



         NOTE 5              PROPERTY AND EQUIPMENT

     Property and equipment that were capitalized at September 30, 2011 and 2010 are as follows:

                                                                           (in thousands)
                                                 FY 2011                             FY 2010
                                                Accumulated                         Accumulated
         Classes of Property        Acquisition                Net Book Acquisition                Net Book
                                                Depreciation /                      Depreciation /
          and Equipment               Value                     Value     Value                     Value
                                                Amortization                        Amortization
     Operating Equipment           $    76,793 $       57,099 $ 19,694 $    67,575 $       52,283 $ 15,292
     Software                             63,542            38,219         25,323           59,385        32,063       27,322
     Furniture & Furnishings               1,919               824          1,095            2,224           937        1,287
     Leasehold Improvements               37,689            18,241         19,448           37,483        15,828       21,655
     Leasehold Improvements-in
                                           2,364                 0          2,364            1,459             0        1,459
     Progress
     TOTAL                          $    182,307 $         114,383 $       67,924 $       168,126 $       101,111 $    67,015




         NOTE 6              NON-ENTITY ASSETS

     Entity assets are those assets that the Library has authority to use for its operations. Non-entity assets are those held
     by the Library but are not available for use in its operations.
                                                                           (in thousands)
                                                                           FY 2011                                 FY 2010
     Intragovernmental Non-Entity Assets                               $              0               $                      0

     Accounts Receivable-with the Public                                           17                                      24
     Total Non-Entity Assets                                           $           17                 $                    24
     Total Entity Assets                                               $      554,669                 $               578,799
     Total Assets                                                      $      554,686                 $               578,823




40
                                                                       Notes to the Consolidated Financial Statements



    NOTE 7              LEASES

A. Capital Leases

The Library did not have assets under capitalized leases as of September 30, 2011 and 2010.

B. Operating Leases
The Library leases office space and vehicles from the General Services Administration and has entered into other
operating leases for various types of equipment. Additionally, the Library’s overseas field offices lease operating
space from the Department of State.

Lease costs for office space, vehicles and equipment for fiscal years 2011 and 2010 amounted to $4,966,934 and
$4,572,895 respectively.

Under existing commitments as of September 30, 2011 estimated future minimum lease payments are as follows:

                                                                                    (in thousands)
                                                                              FY 2011            FY 2010
     2011                                                               $                 0 $           5,391
     2012                                                                            5,051                261
     2013                                                                            2,044                160
     2014                                                                            2,017                117
     2015                                                                            1,933                 12
     2016 and thereafter                                                               676                  0
     TOTAL ESTIMATED FUTURE LEASE PAYMENTS                               $          11,721 $            5,941



    NOTE 8              WORKERS’ COMPENSATION

The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Library employees under FECA are administered by the Department of Labor (DOL) and
later billed to the Library.

The Library is using estimates provided by DOL to report the FECA liability. The Library accrued $1,922,048, and
$1,755,799 of unbilled or unpaid workers' compensation costs as of September 30, 2011 and 2010, respectively.
The amount owed to DOL is reported on the Library’s Balance Sheet as an intragovernmental liability. The Library
also established an estimated unfunded liability payable to employees, for future costs based on historical claims
rates. The estimated future unfunded liability is $7,895,911, and $7,461,253 as of September 30, 2011 and 2010
respectively, and is based on a ten-year projection. This liability is recorded on the Balance Sheet as a liability with
the public.




                                                                                                                           41
Notes to the Consolidated Financial Statements



         NOTE 9              CONTINGENT LIABILITIES

     Several claims against the Library relating to employment matters are pending at the administrative level or in court.
     The combined estimated loss for these claims may range up to $4 million. While the resolution of claims cannot be
     predicted with certainty, management has evaluated these claims and believes that the chance of a materially adverse
     outcome for them is less than probable. Therefore, an accounting entry for the estimate was not posted and there is
     no impact on the financial statements. Management believes all other claims are immaterial with respect to the
     Library’s financial statements. Under law, any claims finally adjudicated or settled at the administrative level would
     be paid from the Library's funds and any claims litigated in court would be settled by the Treasury's Claims,
     Judgments and Relief Act Fund.


        NOTE 10              OTHER LIABILITIES

     Other Liabilities as of September 30, 2011 and 2010 are comprised of the following:

                                                                                         (in thousands)
                                                                                  FY 2011               FY 2010
          Other Liabilities-Intragovernmental:
          Deferred Credits                                                    $              (22)   $              (16)
          Liability for Clearing Accounts                                                    363                   146
             Total Intragovernmental                                                         341                   130

          Other Liabilities-With the Public
          Deferred Credits and Pledges                                                         47                   461
          Advances from the Public                                                          4,262                 4,830
             Total with the Public                                                          4,309                 5,291
          TOTAL                                                               $             4,650   $             5,421



                             LIABILITIES COVERED AND NOT COVERED
        NOTE 11
                             BY BUDGETARY RESOURCES

                                                                                         (in thousands)
                                                                                  FY 2011             FY 2010
          Liabilities Covered by Budgetary Resources                      $            128,302 $           126,449
          Liabilities Not Covered by Budgetary Resources:
             Intragovernmental                                                           1,922                 1,756
             With the Public                                                            33,873                33,756
          TOTAL                                                           $            164,097 $             161,961

     Liabilities covered by budgetary resources include accounts payable, advances from others, accrued funded payroll
     and benefits, custodial liabilities, deposit account liabilities, advances from the public, and deferred credits.

     Liabilities not covered by budgetary resources include accrued unfunded annual and compensatory leave, accrued
     unfunded workers compensation, and other unfunded liabilities.




42
                                                                    Notes to the Consolidated Financial Statements



   NOTE 12              PROGRAM COSTS BY BUDGET OBJECT CLASSIFICATION
                                              (Dollars in Thousands)

 FY 2011 Program Costs by Budget Object Classification
                                             Depreciation and          Other Program costs
                  Non-Capitalizable            Amortization                  34,777
                     Equipment                   $16,223                       4%
                       $38,374                     2%
                         4%


                Library Materials
                    $88,264
                      10%


                                                                                             Personnel Services and
                                                                                                    Benefits
                Contractual Services                                                               $471,930
                     $258,179                                                                        52%
                        28%




  FY 2010 Program Costs by Budget Object Classification

                                                                       Other Program Costs
                                           Depreciation and
                                                                             $37,510
                                             Amortization
                                                                               4%
                                               $14,395
                                                 2%
                Non-Capitalizable
                  Equipment
                    $57,086
                      6%



                Library Materials
                     $82,725
                       9%                                                                    Personnel Services
                                                                                                and Benefits
                Contractual Services                                                              $473,639
                     $274,739                                                                       50%
                       29%




The Library’s collections are classified as “heritage assets.” $33.1 million and $27.3 million of the amount
designated as “Library Materials” above represents the fiscal years 2011 and 2010 cost incurred by the Library for
“heritage assets.”




                                                                                                                      43
Notes to the Consolidated Financial Statements



                             PROGRAM COSTS AND EARNED REVENUE
        NOTE 13
                             BY FUNCTIONAL CLASSIFICATION

     A. Program Costs by Functional Classification

                                                                                         (in thousands)
                                                                                FY 2011                FY 2010
          Commerce and Housing Credit                                      $          61,949      $           64,908
          Education, Training, Employment, and Social Services                       725,288                 750,652
          General Government                                                         120,510                 124,534
          TOTAL                                                            $         907,747      $          940,094


     B. Earned Revenue by Functional Classification

                                                                                        (in thousands)
                                                                                FY 2011              FY 2010
          Commerce and Housing Credit                                      $          32,692 $              38,473
          Education, Training, Employment, and Social Services                        97,060                98,626
          General Government                                                              (6)                    6
          TOTAL                                                            $         129,746 $             137,105




        NOTE 14              EXCHANGE REVENUES

     In accordance with Library of Congress Regulation (LCR) 1510, Financial Services, the Library must comply with
     any OMB circular or bulletin if it is specifically prescribed in (1) an LCR, (2) an OCFO Directive, or (3) if required
     by law. OMB Circular No. A-25, User Charges, does not fall into any of these three categories, but may be used by
     the Library as a useful point of reference. Circular No. A-25 requires that user charges be sufficient to recover the
     full costs to the federal government. Full costs include all direct and indirect costs to any part of the federal
     government of providing the good or service, including unreimbursed inter-entity costs.

     Were the Library to increase fees and prices to recover full costs to the government for providing goods and services
     in its business-like activities, this would in some cases reduce the quantity of goods and services demanded. It is not
     practicable to provide reasonable estimates regarding (1) revenue foregone from charging fees that do not recover
     full costs to the government and (2) to what extent the quantity of goods and services demanded would change as a
     result of changes in prices and fees.

     Under the Copyright Act, the Copyright Office is required to collect fees. The Act does not require the recovery of
     the full costs of operations, but rather the Copyright Register is authorized to fix fees at a level not more than
     necessary to recover reasonable costs incurred for services plus a reasonable adjustment for inflation. Fees should
     also be fair and equitable and give due consideration to the objectives of the copyright system.




44
                                                          Notes to the Consolidated Financial Statements



               PROGRAM COSTS AND EARNED REVENUE
NOTE 15
               FOR REVOLVING FUNDS

                                                                             (in thousands)
                                                                        FY 2011         FY 2010
     Audio-Visual Duplication
                              Program Cost                          $           193    $       185
                    Services:
                              Less: Earned Revenue                            (114)          (117)
                              Net Program Cost                                   79             68


     Cooperative Acquisitions Program Cost                                     2,793          2,648
                   Program: Less: Earned Revenue                             (3,316)        (2,867)
                              Net Program Cost                                 (523)          (219)

       Decimal Classification: Program Cost                                     182            212
                               Less: Earned Revenue                           (205)          (170)
                               Net Program Cost                                (23)             42


  Document Reproduction and Program Cost                                       1,253          1,987
         Microfilm Services: Less: Earned Revenue                            (1,055)        (1,033)
                             Net Program Cost                                    198            954

        Gift Shop Operations: Program Cost                                     1,784          1,659
                              Less: Earned Revenue                           (1,684)        (1,726)
                              Net Program Cost                                   100           (67)

   Federal Research Program: Program Cost                                      2,980          2,835
                             Less: Earned Revenue                            (3,205)        (3,184)
                             Net Program Cost                                  (225)          (349)

                  FEDLINK: Program Cost                                       78,276         81,970
                           Less: Earned Revenue                             (78,679)       (82,282)
                           Net Program Cost                                    (403)          (312)

              Special Events: Program Cost                                     2,526          2,645
                              Less: Earned Revenue                           (1,802)        (1,344)
                              Net Program Cost                                   724          1,301

                               Total Program Cost                             89,987         94,141
                               Less: Total Earned Revenue                   (90,060)       (92,723)
                               TOTAL PROGRAM COSTS                  $           (73)   $      1,418

                        These programs are discussed further in Note 1.D.




                                                                                                      45
Notes to the Consolidated Financial Statements



       NOTE 16                CLASSIFICATION OF PROGRAM COSTS


                                                                                       (in thousands)
                                                     Intragovernmental                            Public
                                                                   Non-                                Non-          Total
                    FY 2011                       Production
                                                                Production
                                                                                       Production
                                                                                                    Production
     National Library                             $   130,478 $          26                346,827 $         63        477,394
     Law Library                                           7,450               1            17,694                      25,145
     Copyright Office                                     20,247              14            55,902                      76,163
     Congressional Research Service                       32,252              21           109,060                     141,333
     National Library Service for the Blind
                                                           7,345               5            73,213                      80,563
     and Physically Handicapped
     Revolving and Reimbursable Funds                      6,686              17           100,446                     107,149
     TOTAL                                        $      204,458 $            84 $         703,142 $         63 $    907,747




                                                                                   (in thousands)
                                                        Intragovernmental                           Public
                                                                                                        Non-         Total
                   FY 2010                    Production          Non-Production        Production
                                                                                                     Production
     National Library                         $       126,123     $            54 $         359,119 $         35 $     485,331
     Law Library                                        7,342                   2             18,133                    25,477
     Copyright Office                                  19,934                  16             61,376                    81,326
     Congressional Research Service                    32,774                  30           115,620                    148,424
     National Library Service for the                                              7
                                                        6,029                                83,365                     89,401
     Blind and Physically Handicapped
     Revolving and Reimbursable Funds                   4,674                  33           105,428                    110,135
     TOTAL                                    $       196,876 $               142 $         743,041 $        35 $      940,094




46
                                                                      Notes to the Consolidated Financial Statements



     NOTE 17            EARMARKED FUNDS

SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” defines “earmarked funds” as those being financed
by specifically identified revenues, often supplemented by other financing sources, which remain available over
time. These specifically identified revenues and financing sources are required by statute to be used for designated
activities, benefits or purposes, and must be accounted for separately from the Government’s general revenues. The
Library’s consolidated financial statements include the results of operations and financial position of its funds
identified as “earmarked funds.” The Library’s earmarked funds are presented among the following classifications:

    Collections of fees authorized annually for use by appropriations act for:
      The Cataloging Distribution Service (CDS), the distribution arm for the Library of Congress bibliographic
         data and related technical publications. Pursuant to 2 U.S.C. 150, CDS sells its products to libraries
         throughout the United States and around the world and charges “…a price which will cover their costs plus
         ten per centum added.” CDS earned revenues were $3,604,558 and $3,528,043 for fiscal years 2011 and
         2010, respectively.
      The Law Library, pursuant to Public Law 105-275, Section 208, is authorized to receive funds from
         participants in and sponsors of an international legal information database (known as the Global Legal
         Information Network (GLIN)) led by the Law Library of Congress. Fees collected for the development and
         maintenance of GLIN were $15,000 and $15,000 for fiscal years 2011 and 2010, respectively; and
      The Copyright Office, pursuant to 17 U.S.C. 708(d), is authorized to collect fees for the registration of a
         copyright claim and other copyright recordation and filing activities. Fees collected for these services
         were $27,358,753 and $27,798,705 for fiscal years 2011 and 2010, respectively.
      The Recycling Program, pursuant to Public Law 108-199, Section 607, is authorized to collect funds
         resulting from the sale of materials recovered through the recycling program. Fees collected for the
         program were $20,932 and $12,203 for fiscal years 2011 and 2010, respectively.

	   Public Revolving Funds authorized by 2 U.S.C. 182 for the Cooperative Acquisitions, Audio-Visual
     Duplication Services, Gift Shop Operations, Decimal Classification, Document Reproduction and Microfilm
     Services, and Special Events (these programs are discussed further in Note 1.D. and 15);

	   Gift and TFB Funds authorized by 2 U.S.C. 154-163 (and discussed further in Note 1.E.). Gift and TFB Fund
     cash donations and other realized revenues were $8,709,280 and $21,277,082 for fiscal years 2011 and 2010,
     respectively;

	   Copyright Licensing Division, $5,326,435 and $5,658,800 for the fiscal years 2011 and 2010, respectively,
     which is authorized under the Copyright Act (17 U.S.C.) to collect fees to cover and pay administrative costs
     and

	   Other earmarked funds not outlined above (combined revenues of $1,126 and $7,685 for fiscal years 2011 and
     2010, respectively), including: The Oliver Wendell Holmes Devise Fund, which is authorized to fund lectures
     known as the “Oliver Wendell Holmes Lectures” and other projects pertaining to Justice Holmes or the
     Supreme Court (Pursuant to Public Law 84-247); The Gertrude M. Hubbard Bequest, which benefits the
     Gardiner Greene Hubbard Collection (Pursuant to 37 Stat. 319-20); and the Foreign Service National Separation
     Liability Trust Fund, which is authorized to provide the separation pay for foreign national employees (Pursuant
     to Section 151 of Public Law 102-138).

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited into the U.S.
Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Library as
evidence of its receipts. Treasury securities are an asset to the Library and a liability to the U.S. Treasury. Because
the Library and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements. Treasury Securities provide the Library with authority to draw upon
the U.S. Treasury to make future expenditures. When the Library requires redemption of these securities to make


                                                                                                                          47
Notes to the Consolidated Financial Statements


     expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or
     other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the
     same way the Government finances all other expenditures.

     Fiscal data as of, and for the year ended September 30, 2011 is summarized below. Intra-agency transactions have
     not been eliminated in the amounts presented below.

                                                                              (in thousands)
                                             Offsetting        Public                            Other         Total
                                                                               Gift and
                    FY 2011                  Collections      Revolving
                                                                              TFB Funds
                                                                                               Earmarked     Earmarked
                                               Funds           Funds                             Funds         Funds
     Balance Sheet:
       Fund Balance with Treasury            $    15,384 $          8,671 $        15,163 $         1,386 $         40,604
       Investments in U.S. Treasury
                                                        0                 0        40,055              50           40,105
       Securities
       Other Assets                                7,620              614          92,732               0         100,966
     Total Assets                            $    23,004 $          9,285 $       147,950 $         1,436 $       181,675

      Liabilities                       $          5,012 $          4,417 $           958 $             0 $        10,387
      Cumulative Results of Operations            17,992            4,868         146,992           1,436         171,288
     Total Liabilities and Net Position $         23,004 $          9,285 $       147,950 $         1,436 $       181,675

     Statement of Net Cost:
       Program Costs                               40,399 $          9,557 $       15,281 $          5,397 $        70,634
       Less: Earned Revenue                      (30,999)          (9,886)         (1,087)         (5,326)        (47,298)
     Net Cost of Operations                  $      9,400 $          (329) $       14,194 $             71 $        23,336

     Statement of Changes in Net
     Position:
     Net Position, Beginning                 $    24,008 $          3,769 $ 156,137 $               1,300 $       185,214
       Net Cost                                   (9,400)             329   (14,194)                 (71)         (23,336)
       Non-Exchange Revenues and
                                                        0                 0         4,668                1           4,669
       Donation Receipts
       Other Financing Sources                      3,384             770             381             206            4,741
     Change in Net Position                       (6,016)           1,099         (9,145)             136         (13,926)
     Net Position, Ending                    $    17,992 $          4,868 $       146,992 $         1,436 $       171,288




48
                                                                       Notes to the Consolidated Financial Statements



Fiscal data as of, and for the year ended September 30, 2010 is summarized below. 


                                                                        (in thousands)
                                       Offsetting       Public                             Other        Total
                                                                         Gift and
              FY 2010                  Collections     Revolving
                                                                        TFB Funds
                                                                                         Earmarked    Earmarked
                                         Funds          Funds                              Funds        Funds 

Balance Sheet: 

  Fund Balance with Treasury 
        $     18,905 $         7,760 $         14,442 $         1,233 $     42,340
  Investments in U.S. Treasury
                                                  0                0         37,056              67       37,123
  Securities 

  Other Assets 
                            10,678             757          106,138               0      117,573
Total Assets                          $     29,583 $         8,517 $        157,636 $         1,300      197,036


 Liabilities                       $         5,575 $         4,748 $          1,499 $             0 $     11,822
 Cumulative Results of Operations           24,008           3,769          156,137           1,300      185,214
Total Liabilities and Net Position $        29,583 $         8,517 $        157,636 $         1,300 $    197,036

Statement of Net Cost:
  Program Costs                       $     34,048 $          9,896 $        15,053 $          5,715 $     64,712
  Less: Earned Revenue                    (31,354)          (9,082)          (1,185)         (5,659)     (47,280)
Net Cost of Operations                $      2,694 $            814 $        13,868 $             56 $     17,432

Statement of Changes in Net
Position:
Net Position, Beginning               $     24,340 $         3,336 $        144,772      $    1,071 $    173,519
   Net Cost                                 (2,694)           (814)        (13,868)            (56) $    (17,432)
 Non-Exchange Revenues and
                                                  0                0         16,656               8       16,664
 Donation Receipts 

 Other Financing Sources 
                   2,362           1,247            8,577             277       12,463
 Change in Net Position                      (332)             433           11,365             229       11,695
Net Position, Ending                  $     24,008 $         3,769 $        156,137 $         1,300 $    185,214




                                                                                                                    49
Notes to the Consolidated Financial Statements



          NOTE 18                BUDGETARY RESOURCES

      Budgetary resources are classified as follows:

                                                                         (in thousands)
                                                      FY 2011                                     FY 2010
                                                        Non-                                        Non-
                                     Appropriated                                   Appropriated
                                                     Appropriated     Combined                   Appropriated     Combined
                                       Capital                                        Capital
                                                       Capital                                     Capital
     Budgetary Resources:
     Unobligated Balance, Brought
                                     $     25,895    $      64,175 $      90,070    $      42,871 $   1,248,129 $ 1,291,000
     Forward, October 1
     Recoveries of Prior-Year
                                            9,643           12,024        21,667           19,143       15,289        34,432
     Obligations
     Budget Authority:
      Appropriation                       629,936           23,839       653,775          643,337       24,001       667,338
      Spending Authority from
      Offsetting Collections:
       Earned:
        Collected                             359          141,849      142,208               281      150,712       150,993
        Change in Receivables
                                            (222)              944           722            (242)        1,037           795
        from Federal Sources
       Change in Unfilled
       Customer Orders:
        Advances Received                                     (116)        (116)                0       (3,808)      (3,808)
        Without Advances from
                                                             1,243         1,243                0        (767)         (767)
        Federal Sources
      Expenditure Transfers from
      Trust Funds
     Subtotal Budget Authority            630,073          167,759       797,832          643,376      171,175       814,551
     Nonexpenditure Transfers, Net           (76)                           (76)           (1,137)           0        (1,137)
     Temporarily Not Available
     Pursuant to Public Law
     Permanently Not Available             (9,195)           (232)        (9,427)          (7,190)                   (7,190)
     Total Budgetary Resources       $    656,340    $     243,726 $     900,066    $     697,063 $   1,434,593 $ 2,131,656

     Status of Budgetary
     Resources:
     Obligations Incurred:
       Direct                        $    626,983    $      23,664 $     650,647    $     671,168 $   1,205,636 $ 1,876,804
       Reimbursable                                        149,712       149,712                        164,782     164,782
     Total Obligations Incurred           626,983          173,376       800,359          671,168     1,370,418   2,041,586
     Unobligated Balance (Exempt
                                           12,897           69,701        82,598            7,941       63,275        71,216
     from Apportionment)
     Unobligated Balance – Not
                                           16,460              649        17,109           17,954          900        18,854
     Available
     Total Status of Budgetary
                                     $    656,340    $     243,726 $     900,066    $     697,063 $   1,434,593 $ 2,131,656
     Resources




50
                                                                        Notes to the Consolidated Financial Statements



                                                                      (in thousands)
                                                   FY 2011                                      FY 2010
                                                     Non-                                         Non-
                                Appropriated                                      Appropriated
                                                  Appropriated     Combined                    Appropriated              Combined
                                  Capital                                           Capital
                                                    Capital                                      Capital
Change in Obligated
Balance:
Unpaid Obligated Balance,
Net, Brought Forward,
October 1:
 Unpaid Obligations, Brought
                                $     222,756     $      75,721 $     298,477      $    207,917 $             70,096 $      278,013
 Forward
 Less: Uncollected Customer
                                        (248)           (12,273)      (12,521)
 Payments, Brought Forward                                                                 (490)            (12,002)        (12,492)
Total Unpaid Obligation
                                      222,508            63,448       285,956           207,427               58,094        265,521
Balance, Net
 Obligations Incurred, net            626,983            173,376       800,359           671,168            1,370,418      2,041,586
 Less: Gross Outlays                (636,010)          (162,975)     (798,985)         (637,186)          (1,349,504)    (1,986,690)
 Less: Recoveries of Prior-
                                      (9,643)           (12,024)      (21,667)          (19,143)            (15,289)        (34,432)
 Year Unpaid Obligations
 Change in Uncollected
 Customer Payments from                  222             (2,187)       (1,965)               242                                   (29)
                                                                                                               (271)
 Federal Sources
Total Unpaid Obligated
Balance, Net:
 Unpaid Obligations                   204,086            74,098       278,184           222,756               75,721        298,477
 Less: Uncollected Customer
 Payments from Federal                   (26)           (14,460)      (14,486)             (248)            (12,273)        (12,521)
 Sources
Total Unpaid Obligated
                                $   204,060       $      59,638 $     263,698      $    222,508 $             63,448 $      285,956
Balance, Net, End of Period

Net Outlays:
 Gross Outlays                  $     636,010     $      162,975 $     798,985     $    637,186 $          1,349,504 $ 1,986,690
 Less: Offsetting Collections           (359)          (141,733)     (142,092)            (281)            (146,904)   (147,185)
 Less: Distributed Offsetting
                                              0            (216)         (216)                    0           (1,471)           (1,471)
 Receipts
Total Net Outlays               $     635,651     $      21,026 $     656,677      $    636,905 $          1,201,129 $ 1,838,034

 For TFB funds, approximately $10.2 and $10.1 million of unobligated authority for fiscal years 2011 and 2010,
 respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
 restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
 invested either in the permanent loan or in Treasury securities. An additional $53.2 and $53.2 million of restricted
 authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2011 and 2010,
 respectively.

 Undelivered orders, end of period:

                                                                                           (in thousands)
                                                                                 FY 2011                    FY 2010
       Paid                                                              $                   88       $                 1,319
       Unpaid                                                                          193,894                      217,096
       TOTAL                                                             $             193,982        $             218,415




                                                                                                                                          51
Notes to the Consolidated Financial Statements



                          RECONCILIATION OF NET COST OF
       NOTE 19
                          OPERATIONS TO BUDGET
                                                                                                  (in thousands)
                                                                                              FY 2011        FY 2010
     RESOURCES USED TO FINANCE ACTIVITIES
       Budgetary Resources Obligated:
          Obligations Incurred                                                            $      800,359 $     2,041,586
          Less: Spending Authority from Offsetting Collections and Recoveries                  (165,724)       (181,645)
          Obligations Net of Offsetting Collections and Recoveries                               634,635       1,859,941
          Less: Distributed Offsetting Receipts                                                    (216)          (1,471)
          Net Obligations                                                                        634,419       1,858,470
       Other Resources:
          Donations of Property and Services                                                      25,189           42,516
          Imputed Financing from Costs Absorbed by Others                                       101,509          102,710
          Exchange Revenue not in the Budget                                                        (57)              103
          Non-exchange Revenue not in the Budget                                                       0            (579)
          Trust/Special Fund Exchange Revenue Receipts                                           (6,929)          (7,444)
          Other Resources (+/-)                                                                  (3,025)            4,559
       TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                               751,106        2,000,335

     RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
       Change in Budgetary Resources Obligated for Goods, Services, and Benefits                 25,563             (9,053)
       Ordered but Not Yet Provided (+/-)
       Resources that Fund Expenses Recognized in Prior Period                                     (318)                 0
       Resources that Finance the Acquisition of Assets                                         (16,499)               291
       Budgetary Offsetting Receipts that do not Affect Net Cost of Operations                       216             1,471
       Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
                                                                                                 (2,763)            (6,835)
       Cost of Operations (+/-)
       Fiduciary Obligations Net of Offsetting Collections and Recoveries                               0    (1,180,443)
       TOTAL RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
                                                                                                  6,199      (1,194,569)
       OPERATIONS

     TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                 757,305            805,766

     COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
     GENERATE RESOURCES IN THE CURRENT PERIOD
        Components Requiring or Generating Resources in Future Periods:
           Increase in Annual Leave Liability and Actuarial Liability                               601              1,507
           Other                                                                                      0                  0
        Total Components Requiring or Generating Resources in Future Periods                        601              1,507
        Components not Requiring or Generating Resources:
           Depreciation and Amortization                                                         16,223              14,395
           Revaluation of Assets or Liabilities                                                   3,905            (18,684)
           Other Costs not Requiring or Generating Budgetary Resources (+/-)                       (33)                   5
        Total Components not Requiring or Generating Resources                                   20,095             (4,284)
     TOTAL COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE
                                                                                                 20,696             (2,777)
     OR GENERATE RESOURCES IN THE CURRENT PERIOD


     NET COST OF OPERATIONS                                                               $     778,001 $          802,989




52
                                                                       Notes to the Consolidated Financial Statements



   NOTE 20              Fiduciary Activity and Net Assets

SFFAS No. 31, “Accounting for Fiduciary Activities,” defines “fiduciary activity” as those Federal Government
activities that relate to the collection or receipt, and the subsequent management, protection, accounting, investment
and disposition of cash or other assets in which non-Federal parties have an ownership interest that the Federal
Government must uphold.

Fiduciary assets are not assets of the Library of Congress. The Library’s Balance Sheet, Statement of Net Cost and
Statement of Net Position do not include the results of operations and financial position of its funds identified as
“fiduciary activities.” During fiscal year 2010, as authorized by OMB and the Treasury Department, the Library
transferred all Copyright Licensing net assets from a Special Fund (in Budget) to a Deposit Fund (non-Budget) by a
budgetary outlay out of the Special Fund in the amount of $1.2 billion. At the end of fiscal year 2010, there was no
remaining Unobligated Balance in the Statement of Budgetary Resources (SBR) for the Copyright Licensing Special
Fund. Beginning in fiscal year 2011, there will be no fiduciary activity or Unobligated Balance reflected in the SBR
for the Copyright Licensing Fiduciary Deposit Fund.

The Library of Congress Copyright Office Licensing Division administers the compulsory and statutory licenses
covered by the Copyright Act (17 U.S.C.). The Licensing Division receives royalty fees from cable television
operators for retransmitting television and radio broadcasts, from satellite carriers for retransmitting "super station"
and network signals, and from importers and manufacturers for distributing digital audio recording technologies
(DART). Refunds may arise when a cable, satellite, or DART remitter inadvertently overpays or is otherwise
entitled to a refund. Additional royalty fees may also be requested from the remitter when necessary. The Licensing
Division invests the licensing royalty fees in market-based U.S. Treasury notes and bills. Because these investments
are held in a fiduciary capacity for the copyright owners, income does not accrue to the Library's benefit.

Controversies regarding the distribution of the royalties are resolved by the Copyright Royalty Board (CRB), which
is composed of three Copyright Royalty Judges and their staff. The CRB has full jurisdiction over setting royalty
rates and terms and determining distributions. Decisions may be appealed to the United States Court of Appeals for
the District of Columbia Circuit.

Investments - Copyright royalties collected by the Copyright Office on behalf of copyright owners are invested, net
of service fees, in U.S. Treasury securities. Treasury securities are intended to be held to maturity, are valued at cost
and are adjusted for the amortization of discounts and premiums. Interest is computed using the straight-line
method, which approximates the effective interest method. These investments will be held until distributions are
made to copyright owners. Income accrues to the benefit of the copyright owners.


Intragovernmental Investments - Non-marketable, market-based securities are Treasury notes and bills issued to
governmental accounts that are not traded on any securities exchange, but mirror the prices of marketable securities
with similar terms. Fiduciary funds investment maturity dates for fiscal year 2011 and 2010 range from October 27
to August 31, 2012 and October 21 to August 31, 2011 respectively and interest rates for fiscal year 2011 and 2010
range from .000 percent to 4.5 percent and from .012 percent to 4.875 percent respectively.




                                                                                                                            53
Notes to the Consolidated Financial Statements


     Fiduciary Activity consists of the following:

                                                                                 (in thousands)
                                                                           FY 2011            FY 2010
          Beginning Fiduciary Net Assets                               $      1,203,390 $        1,183,263
            Licensing Fees                                                      323,501            275,619
            Investment Earnings                                                   4,586                809

          Total Net Inflows to Fiduciary Net Assets                             328,087            276,428
            Payments to Copyright Owners                                      (144,160)          (249,269)
            Refunds of Licensing Fees                                            (3,528)            (1,373)
            Retained by Copyright Licensing for Administrative Costs             (5,327)            (5,659)
          Total Outflows from Fiduciary Net Assets                            (153,015)          (256,301)

          Subtotal Net Fiduciary Activity                                       175,072             20,127
          ENDING FIDUCIARY NET ASSETS                                  $      1,378,462 $        1,203,390


     Net Fiduciary Assets consist of the following:

                                                                                 (in thousands)
                                                                           FY 2011            FY 2010
          Fiduciary Assets
             Fiduciary Fund Balance with Treasury                      $          2,014 $            3,480
             Investments in U.S. Treasury Securities                          1,374,967          1,199,560
             Accrued interest from U.S. Treasury Securities                       1,481                350

          TOTAL FIDUCIARY NET ASSETS                                   $      1,378,462 $        1,203,390




54
                                                                                                      Management Report


                              THE LIBRARY OF CONGRESS 

                                            Management Report 

                                        Fiscal Year Ended September 30, 2011




                                Assessment of Condition of Heritage Assets
The Library has the largest collections in the world, including materials in over 470 languages and various media.
Providing access to this collection inevitably puts it at risk and could impair the Library's ability to serve the
Congress and other users in the future. However, the collections exist to be used, and management accepts the
responsibility of mitigating risk to the collections at the same time it fulfills its goal of providing access to them.

As of September 30, 2011, the collections were determined to be in a useable condition for fulfilling the Library’s
service mission. During fiscal year 2011, only a very small percentage of materials were removed from the
collection because of damage caused by use and/or deterioration of the medium. The ultimate useful life of a library
item varies by its medium (e.g., book, film, tape, manuscript, disk), and the manner in which it is used and stored.

The Library employs a variety of methods to prolong the useful life of its deteriorating materials, including:

        Establishment of adequate environmental storage conditions
        Use of binding or other methods to house items
        Mass deacidification of print materials
        Use of surrogates in serving the collections to the public
        Reformatting of collections to other media

The Library has inadequate temperature and humidity control in some collections storage areas; inadequate space for
appropriate storage of some collections materials; and insufficient resources for meeting all reformatting needs.
These conditions cannot be fully addressed with current funds and physical plant. The move of collections into the
storage facility at Ft. Meade, Maryland, is serving to remedy many of these difficulties for books and paper-based
materials, and the acquisition of the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia, was a
major step in the preservation of film and other media.




                                                                                                                          55 

                  UNITED STATES GOVERNMENT                                 LIBRARY OF CONGRESS
                  Memorandum                                               Office of the Inspector General


TO:               James H. Billington                                                         March 30, 2012 
                  Librarian of Congress 
                   
FROM:             Karl W. Schornagel       
                  Inspector General                           
 
SUBJECT:         Results of the Library of Congress FY 2011 Financial Statements Audit 
 
The attached report presents the results of the annual audit of the Library of Congress financial 
statements for fiscal years (FY) 2011 and 2010. 
 
We contracted with the independent certified public accounting firm of CliftonLarsonAllen LLP 
(CLA) for the audit.  The contract required that the audit be performed in accordance with U.S. 
generally accepted government auditing standards; the Office of Management and Budget Bulletin 
07‐04, Audit Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit Manual. 
 
Results of Independent Audit 
 
Financial Statements 
 
For the sixteenth consecutive year, we are pleased to report that the auditors issued an unqualified 
opinion on the Library’s financial statements.  In its audit, CLA found that the financial statements 
were fairly presented, in all material respects, in conformity with U.S. generally accepted 
accounting principles. 
 
Report on Internal Controls 
 
CLA’s consideration of internal controls over financial reporting (including the safeguarding of 
assets) resulted in the identification of one significant deficiency. 1   CLA determined that the 
Library’s internal controls over the recording of pledges are not designed to ensure they are 
accurately and completely recorded.  Weaknesses were noted with the proper identification of 

1
 A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is less severe 
than a material weakness, yet important enough to merit attention by those charged with governance.  A 
deficiency in internal control exists when the design or operation of a control does not allow management or 
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct 
misstatements on a timely basis.


56 

conditional pledges, lack of sufficient documentary evidence to support the recording of pledges, 
and lack of valuation of annual income payments from a pledge to determine if the beneficial 
interest was material to the financial statements.        
 
 Compliance with Laws and Regulations 
 
CLA found no instances of noncompliance with laws and regulations tested. 
 
Office of the Inspector General Oversight of CLA 
 
In connection with the audit contract, the Office of the Inspector General reviewed CLA’s report 
and related documentation and inquired of its representatives.  Our review as differentiated from 
an audit in accordance with U.S. generally accepted government auditing standards, was not 
intended to enable us to express, and we do not express, opinions on the Library’s financial 
statements, conclusions about the effectiveness of internal controls, and compliance with laws and 
regulations.  CLA is responsible for the attached auditor’s report dated March 16, 2012 and the 
conclusions expressed in the report. 2   However, our review disclosed no instances where CLA did 
not comply in all material respects with generally accepted government auditing standards.   
 
 
 
 
cc:	   Chief of Staff 
        Chief Financial Officer 
 
 
 
         




2
 In accordance with generally accepted auditing standards, CLA’s report is dated as of the last day of their 
audit fieldwork.  CLA’s final report was delivered to the Office of the Inspector General on March 30, 2012.


                                                                                                            57
                                                                           CliftonLarsonAllen LLP
                                                                           www.cliftonlarsonallen.com




                                    Independent Auditor’s Report


Office of the Inspector General
Library of Congress


In our audit of the Library of Congress (the Library), a member of the legislative branch within the
United States Government, for fiscal year 2011, we found:

    The consolidated balance sheet of the Library as of September 30, 2011, the related
     consolidated statements of net cost and changes in net position, and the combined statements
     of budgetary resources for the year then ended (hereinafter referred to as “consolidated financial
     statements”) are presented fairly, in all material respects, in accordance with accounting
     principles generally accepted in the United States of America.
      No material weakness in internal control over financial reporting (including safeguarding of
     assets) and compliance with laws and regulations, although internal control could be improved.
      One significant deficiency related to the improper recording of pledges receivable – donations
     and related recognition of donations (revenue).
      No instance of noncompliance with selected provisions of laws and regulations tested.

The following sections (including Exhibit 1) discuss in more detail: (1) above conclusions, (2) our
conclusions relating to the Management’s Discussion and Analysis (MD&A), and other supplementary
information, (3) management’s responsibilities, (4) our audit objectives, scope and methodology, and
(5) management’s response and our evaluation of their response.

Opinion on Financial Statements

In our opinion, the consolidated financial statements, including the accompanying notes, present
fairly, in all material respects, in conformity with accounting principles generally accepted in the United
States of America, the Library’s assets, liabilities, and net position as of September 30, 2011, and net
costs, changes in net position, and budgetary resources for the year then ended. The Library’s
financial statements as of and for the year ended September 30, 2010, were audited by other
auditors; whose report dated February 9, 2011, expressed an unqualified opinion on those financial
statements.

Consideration of Internal Control over Financial Reporting and Compliance

In planning and performing our audit, we considered the Library’s internal control over financial
reporting and compliance (internal control) as a basis for designing our auditing procedures and to
comply with Office of Management and Budget (OMB) audit guidance for the purpose of expressing
our opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Library’s internal control over financial reporting and compliance or on
management’s assertion on internal control included in MD&A. Accordingly, we do not express an
opinion on the effectiveness of the Library’s internal control over financial reporting and compliance
nor on management’s assertion on internal control included in the MD&A.


58
Our consideration of internal control over financial reporting and compliance was for the limited
purpose described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting and compliance that might be significant deficiencies or
material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A material weakness is a deficiency or a
combination of deficiencies in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a control deficiency or a combination of
deficiencies in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. We consider the deficiency identified in Exhibit 1 to
be a significant deficiency in internal control over financial reporting.

We noted other nonreportable matters involving the Library’s internal control and its operation that we
communicated in a separate letter to the Library’s management.

Our consideration of internal control was for the limited purpose described in the first paragraph above
and would not necessarily identify all significant deficiencies in internal control that are also
considered to be material weaknesses. However, we do not believe the significant deficiency
described above is a material weakness.

Compliance with Laws and Regulations

Our tests of the Library’s compliance with selected provisions of laws and regulations for fiscal year
2011 disclosed no instance of noncompliance that is reportable under United States generally
accepted government auditing standards or OMB audit guidance. However, the objective of our audit
was not to express an opinion on overall compliance with laws and regulations. Accordingly, we do
not express such an opinion.

Consistency of Other Information

The Library’s MD&A contains a wide range of information, some of which is not directly related to the
financial statements. We reviewed this information for consistency with the financial statements and
discussed the methods of measurement and presentation with the Library’s officials. Based on this
limited work, we found no material inconsistencies with the financial statements, accounting principles
generally accepted in the United States, or OMB guidance. However, we do not express an opinion
on this information.

Management’s Responsibilities

The Library’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing and maintaining
effective internal control over financial reporting, and evaluating its effectiveness, and (3) complying
with applicable laws and regulations.

Audit Objectives, Scope and Methodology

We are responsible for obtaining reasonable assurance about whether the financial statements are
presented fairly in all material respects, in conformity with accounting principles generally accepted in


                                                                                                      59 

the United States. We are also responsible for (1) obtaining a sufficient understanding of internal
control over financial reporting and compliance to plan the audit, (2) testing compliance with selected
provisions of laws and regulations that have a direct and material effect on the financial statements
and laws for which OMB audit guidance requires testing, and (3) perform limited testing with respect
to other information appearing in the Annual Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles used and
significant estimates made by management, (3) evaluated the overall presentation of the financial
statements, (4) obtained an understanding of the Library and its operations, including its internal
control over financial reporting (including safeguarding of assets) and compliance with laws and
regulations, (5) tested relevant internal controls over financial reporting and compliance, (6)
considered the design of the process for evaluating and reporting on internal control and financial
management systems, and (7) tested compliance with selected provisions of certain laws and
regulations.

We limited our internal control testing to controls over financial reporting and compliance. Because of
inherent limitations in internal control, misstatements due to error, fraud, losses, or noncompliance
may nevertheless occur and not be detected. We also caution that projecting our evaluation to future
periods is subject to the risk that controls may become inadequate because of changes in conditions
or that the degree of compliance with controls may deteriorate. In addition, we caution that our internal
control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the Library. We limited our tests
of compliance to selected provisions of those laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to the Library’s financial statements for the fiscal year ended September 30, 2011. We
caution that noncompliance with laws and regulations may occur and not be detected by these tests
and that such testing may not be sufficient for other purposes.

We performed our audits in accordance with auditing standards generally accepted in the United
States; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and OMB audit guidance. We believe that our
audit provides a reasonable basis for our opinion.

Distribution

This report is intended solely for the information and use of the management of the Library, the
Library Office of Inspector General, the OMB, the Government Accountability Office, and the U.S.
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.




Calverton, Maryland
March 16, 2012




60 

EXHIBIT 1 - SIGNIFICANT DEFICIENCY

Strengthen Internal Controls Over Recording of Pledge Receivable – Donations

The Library frequently receives donations and promises to give from members of the public. The
Library’s current internal controls activities are not designed in a manner to effectively prevent and/or
detect errors in ensuring pledges are accurately and completely recorded. Two sets of conditions
were noted within the pledge receivable area, having two distinct types of exceptions. The first set of
conditions relate to the Library’s inappropriate recording of pledges as receivables. The Library has
not considered whether pledges are conditional prior to recording them and the Library has not
maintained sufficient documentary evidence to support the decisions to recognize pledges receivable.
We tested 11 recorded pledges and noted the following issues:

 	 Two conditional pledges were inappropriately recorded as pledges receivable where the
    conditions had not been met as of September 30, 2011.
 	 A third conditional pledge stipulated that further payment would be dependent on funding and
    that the donor could not guarantee the second of two payments. An email written in
    February, 2012 notes that the decision had been made by the donor to make the second
    payment; however, the Library does not have evidence of when that decision was reached.
 	 A fourth pledge lacked sufficient evidence to support the amount recorded, in which the Library
    was named beneficiary of a trust. The Library has a letter from the donor stating that a trust has
    been created, which will benefit the Library; however, the Library does not have a copy of the
    trust document to determine if the pledge qualifies as an unconditional promise to give.
 	 A fifth pledge was inadvertently recorded even though the final agreement between the donor
    and the Library had not been reached as of September 30, 2011, and the pledge was
    conditioned on the signing of the agreement and providing construction related invoices for
    reimbursement.
 	 The last pledge names the Library as a beneficiary of a will that has not yet been through
    probate. Since the donor is still alive, the will can be changed, and the pledge would not be
    considered an unconditional promise to give.

The second set of conditions relates to the Library failing to recognize a pledge as a receivable. The
Library was named beneficiary of a trust and receives annual income payments. The Library had not
performed a valuation necessary to determine if the beneficial interest in the trust was material to the
financial statements.

Recommendations

We recommend the Library incorporate control activities to effectively prevent and/or detect errors in
providing reasonable assurance over the reliability of financial reporting within the pledge receivable
balance. Listed below are considerations for the Library to develop their internal controls within this
area:

 1.	 Prior to recognizing a pledge receivable and the related revenue in the financial statements,
     ensure sufficient evidence in the form of verifiable documentation that an unconditional promise
     to give was made in accordance with generally accepted accounting principles.

 2.	 Pledges based on trusts should be supported by a copy of the trust documentation.




                                                                                                      61 

